<html>
<title> - THE DEVELOPMENT OF THE IRAQI SECURITY FORCES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                         [H.A.S.C. No. 110-60]
 
              THE DEVELOPMENT OF THE IRAQI SECURITY FORCES

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JUNE 12, 2007


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                     U.S. GOVERNMENT PRINTING OFFICE

38-265 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001





               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                 MARTY MEEHAN, Massachusetts, Chairman
JOHN SPRATT, South Carolina          W. TODD AKIN, Missouri
VIC SNYDER, Arkansas                 ROSCOE G. BARTLETT, Maryland
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        JEFF MILLER, Florida
ROBERT ANDREWS, New Jersey           PHIL GINGREY, Georgia
SUSAN A. DAVIS, California           K. MICHAEL CONAWAY, Texas
JIM COOPER, Tennessee                GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
                Lorry Fenner, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                     Sasha Rogers, Staff Assistant

                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Tuesday, June 12, 2007, The Development of the Iraqi Security 
  Forces.........................................................     1

Appendixes:

Tuesday, June 12, 2007...........................................    45
                              ----------                              

                         TUESDAY, JUNE 12, 2007
              THE DEVELOPMENT OF THE IRAQI SECURITY FORCES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd a Representative from Missouri, Ranking 
  Member, Oversight and Investigations Subcommittee..............     3
Meehan, Hon. Marty, a Representative from Massachusetts, 
  Chairman, Oversight and Investigations Subcommittee............     1

                               WITNESSES

Dempsey, Lt. Gen. Martin, Commander, Multi-National Security 
  Transition Command-Iraq, U.S. Army.............................     6
Kimmitt, Mark, Deputy Assistant Secretary of Defense for Near 
  Eastern and South Asian Affairs, Office of the Secretary of 
  Defense........................................................     5

                                APPENDIX

Prepared Statements:
    Akin, Hon. W. Todd...........................................    52
    Dempsey, Lt. Gen. Martin.....................................    56
    Meehan, Hon. Marty...........................................    49

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:
    Mr. Andrews..................................................    67
              THE DEVELOPMENT OF THE IRAQI SECURITY FORCES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                            Washington, DC, Tuesday, June 12, 2007.
    The subcommittee met, pursuant to call, at 9:11 a.m., in 
room 2118, Rayburn House Office Building, Hon. Martin Meehan 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MARTY MEEHAN, A REPRESENTATIVE FROM 
     MASSACHUSETTS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS 
                          SUBCOMMITTEE

    Mr. Meehan. Welcome, General, Mr. Kimmitt. Welcome to the 
Subcommittee on Oversight and Investigations.
    Today we will continue our examination of the most pressing 
issue facing the country: the war in Iraq.
    In past weeks the subcommittee has looked into a number of 
aspects of the complex mission to man, train and equip the 
Iraqi Security Forces. We have also looked at whatever plans we 
have been able to obtain to turn over security to them.
    We know how hard and difficult this work is, that our armed 
services have put a lot of effort into this difficult and 
dangerous project.
    Today's hearing will begin with a brief opening statement 
from Mr. Mark Kimmitt of the Office of Assistant Secretary of 
Defense for International Security Affairs. He is the deputy 
secretary for the Middle East and South Asian affairs.
    He will be followed by testimony from General Martin 
Dempsey, who until recently was the commander of MNSTC-I.
    I understand that you have been nominated to be the deputy 
commander of U.S. Central Command.
    In previous hearings, we had hoped to hear from witnesses 
on the command relationships and the responsibility of the 
Multi-National Corps-Iraq, called MNC-I, and the Iraq 
Assistance Group, called the IAG. We would have benefited from 
their operational perspectives.
    In today's hearing, we will hear about the Multi-National 
Security Transition Command-Iraq (MNSTC-I) and its Civilian 
Police Advisory Training Team (CPATT). These organizations are 
charged with training and equipping the Iraqi police service 
and military, as well as managing transition advisory teams for 
the Ministries of Defense (MOD) and Interior (MOI).
    CPATT also supervises the contractors who are international 
police liaison officers and international police trainers 
working with the Iraqi local police.
    Other issues we want to address include the role that 
military and police unit readiness and operational 
effectiveness reports play in assessing the performance of 
Iraqi Security Forces, particularly how they help commanders 
adjust to conditions on the ground.
    More importantly, we want to hear about the actions 
generated by these assessments and how the feedback is provided 
to Iraqi leaders.
    We want to hear from our guests frank appraisals of whether 
these performance assessments, called TRAs, provide an accurate 
picture of the operational competence of the Iraqi Security 
Forces.
    And we would like to hear your view, General Dempsey, on 
whether they are relevant and an adequate tool to help 
commanders judge whether the Iraqi forces are ready for 
transition.
    Our sense is that the military has shown some progress, the 
Iraqi police are not operating effectively, and the ministries 
are not even close to taking over responsibility.
    We are very surprised, given this impression, that the 
Iraqi police service responsibility has already been turned 
over to the MOI. I hope that you can explain your perspective 
on these issues.
    Part of the reason for this hearing is the Department of 
Defense has been slow to get us relevant documents, and it has 
been difficult for the subcommittee to get our preferred 
witnesses.
    The witnesses and briefers we have been offered have had 
to, on numerous occasions, had questions for the record. The 
responses to those questions have been very slow in coming to 
us. And I hope that we don't have the same problem today.
    Our members and the public should know, without disrespect 
intended toward General Dempsey, it has taken a long time to 
get him before us.
    We appreciate his appearance at our hearing today, but I 
would note that we have not been supported in our efforts to 
secure testimony from commanders of the Multi-National Force-
Iraq (MNF-I), the Coalition Police Advisory Training Team and 
the Iraqi Assistance Group or their knowledgeable deputies, 
even by video teleconference.
    General Dempsey, we were assured that you would be able to 
answer questions on these other organizations, but I trust that 
if you can't, you will take them for the record.
    While we have been able to obtain the 2006 version of the 
Joint Campaign Plan, there are specific questions about the 
contents of a critical document that we have not been able to 
obtain--the 2007 Joint Campaign Plan, signed by the commander 
of the Multi-National Forces-Iraq and the Embassy--as it 
pertains to developing Iraqi Security Forces.
    We have been able to obtain the 2007 unclassified campaign 
plan for MNSTC-I for developing the ISF. But we wonder how the 
new joint plan may affect this strategy.
    It is my understanding that Secretary Gates has not yet 
read that plan, and at some point it will be provided to this 
committee.
    Thank you for coming, Mr. Kimmitt.
    I understand that you were advised that you may have some 
questions, that we want to focus on General Dempsey's 
experience and observations from the theater. So I would hope 
that you would make your remarks brief.
    One question that I would like, if you could, in terms of 
addressing the committee--originally, the House Armed Services 
staff was to be briefed yesterday on the department's quarterly 
report on Iraq, the 9010 report. Now that the briefing has been 
rescheduled for this afternoon, and I believe the explanation 
that the director of J5 Strategy Division was that he was on 
leave and no one else could do it. I believe in the past that 
you and also the deputy J5 have briefed the staff.
    Given the difficulty in getting the general here and the 
inability of other witnesses who we wanted to talk to, it seems 
that we would have benefited if we could have had that briefing 
before this session.
    I point that out because we have had an ongoing difficulty 
with the department in terms of getting witnesses.
    Today we have a lot of ground to cover, so we will run the 
subcommittee more formally than usual. We are going to use the 
gavel and the 5-minute rule.
    I would like to remind everyone that this is an open 
hearing, so no classified information will discussed. If 
necessary, we have been cleared and we can move to a separate 
room for a classified briefing, if the questions and the 
witnesses lead us down that road.
    Again, welcome to our witnesses. We are looking forward to 
your remarks. And we will take your whole text for the record, 
but we ask you to give us briefer comments.
    Now, I would like to turn to my colleague, Mr. Todd Akin, 
our ranking member, for any opening remarks that he may 
have.[The prepared statement of Mr. Meehan can be found in the 
Appendix on page 49.]

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Akin. Thank you, Mr. Chairman.
    Today is the last scheduled public hearing of our 
investigation of the Iraqi Security Forces. I understand the 
subcommittee will issue a report on this investigation in the 
coming weeks. And the report's release will close out the 
investigation.
    As this may be the last public meeting of the subcommittee 
with Mr. Meehan as chairman, I would like to take this 
opportunity to commend the chairman for his exceptional 
leadership, to thank him for steering his subcommittee in a 
bipartisan and professional manner.
    I wish you the very best of luck in your new position, Mr. 
Chairman. I only have one piece of advice for you, and that is, 
don't talk about why there are more men than women in technical 
areas of colleges. It is not politically helpful. [Laughter.]
    Welcome to our witness General Dempsey. Thank you for your 
great service overseas. It was a pleasure to be able to come 
visit you. A number of us have made the trip. But we know the 
long hours that you worked and everything. And we are just so 
thankful that you came by and share some of your thoughts with 
us today.
    As we close out the public record of this investigation, I 
would like to focus my comments on what I view are key issues 
the investigation still needs to clarify.
    Foremost, how does ISF's mission fit into the Iraqi 
strategy? Over the past few years, we have spent $19 billion 
training and equipping more than 348,000 ISF personnel, all for 
the purpose of transitioning security responsibility over to 
the Iraqis.
    My sense is that this remains our strategy. The only 
variable that has changed is how and when we transition 
security responsibilities to the Iraqis.
    One thing this investigation has demonstrated is that 
transitioning security responsibilities simply for the sake of 
transitioning will not stabilize Iraq. In fact, it may slow 
progress down.
    I do, however, want to make sure that, contrary to recent 
press reports, our strategy continues to view ISF as the 
lynchpin to our plan to eventually transition U.S. forces out 
of Iraq.
    General Dempsey, I hope you can comment on this during your 
testimony.
    Another issue I would like our witness to clarify is how we 
are progressing in developing a truly national Iraqi security 
force. Again, there are an increasing number of press reports 
that elements of the ISF, particularly the Iraqi police 
service, suffer from sectarian infiltration. Additionally, it 
seems problems of sectarian influence continue to affect the 
ministries, particularly the Ministry of the Interior.
    I would like to hear your assessment of the situation and 
understand what steps we are taking to resolve that problem.
    I would also like to know how sectarianism is affecting the 
combat effectiveness of ISF. A rogue Iraqi unit that carries 
out sectarian reprisals is only one kind of sectarian problem. 
Sectarianism can manifest in other ways.
    This leads me to the general concern about our knowledge of 
ISF.
    While this subcommittee has learned a lot about how we 
train, transition teams and equip ISF, we have learned little 
about the operational competency of ISF. I am concerned that 
the transitional readiness assessments (TRAs) do not tell us 
enough about Iraqi units. Given the $19 billion the American 
people have spent on ISF, we have a responsibility to monitor 
and track how the forces we have trained and equipped are 
operating.
    I look forward to hearing our witnesses' statement and 
their views on these matters.
    Thank you for being here, again, General Dempsey, and 
welcome back.
    Thank you, Mr. Chairman.[The prepared statement of Mr. Akin 
can be found in the Appendix on page 52.]
    Mr. Meehan. Thank you very much, Mr. Akin. And thank you 
very much for that advice, as well.
    We are honored to have the distinguished chair of the Armed 
Services Committee, the gentleman from Missouri, Mr. Ike 
Skelton, here. And I would like to ask the chairman if he would 
like to make some opening comments.
    Mr. Skelton. Mr. Chairman, thank you very much. First, let 
me compliment you on having this hearing. It is very, very 
important, and overdue.
    We, first, though, wish to acknowledge your tremendous work 
in the Congress and on this committee. And being the first 
chairman in many, many years of this subcommittee, you are off 
to an excellent start. And as you leave to go on to become an 
educator and you pass your baton on, you have done a wonderful 
job in getting us going. And a heartfelt thanks to you, Marty 
Meehan.
    The Los Angeles Times reported yesterday that we were 
arming some of the Sunni militia. Needless to say, this is of 
great deal of concern to me. And as to where all this fits into 
the scheme of things of Iraq, I hope the witnesses can touch on 
that, because it is already an open tinderbox as it is, and I 
don't think we should be in the position of making it all the 
worst. I think that is very important.
    Mr. Chairman, I feel like I must vent my frustration on the 
fact that we have not been able to obtain witnesses for proper 
and timely hearings in this all-important subcommittee.
    We even offered to have hearings by way of videoconference 
and that was declined. But at the same time, we saw 
videoconference news conferences, news media conferences, and 
which, in my opinion, were lengthier than any hearing that we 
might have or require.
    I hope that is in the past.
    We in Congress have a duty and an obligation, just as those 
of you in uniform have a duty and obligation. And our duty is 
that of oversight, raising and maintaining the military. But we 
can't do a thorough job unless we have all the facts. And I 
think those in the military fully understand that.
    So I have been frustrated in the past. I hope that is well 
behind us.
    Mr. Chairman, thank you for your service. Thank you so 
much.
    Mr. Meehan. Thank you very much, Mr. Chairman.
    And I would like the witnesses to make opening statements.

   STATEMENT OF MARK KIMMITT, DEPUTY ASSISTANT SECRETARY OF 
DEFENSE FOR NEAR EASTERN AND SOUTH ASIAN AFFAIRS, OFFICE OF THE 
                      SECRETARY OF DEFENSE

    Mr. Kimmitt. Mr. Chairman, good morning. And thank you for 
the opportunity to be here today.
    I have a very short opening statement. And, frankly, it is 
simply to publicly acknowledge the contributions and the 
success of General Dempsey. He is finishing, now, his second 
tour in Iraq, having recently commanded the Multi-National 
Security and Transition Command in Iraq.
    In his first tour, he was the brilliant commander of the 
1st Armored Division in some of the most important fighting 
that was done in the 2003-2004 time period.
    It is our fortune to have leaders such as General Dempsey 
commanding our troops and running our programs inside of Iraq. 
And we are certainly honored by his presence here today.
    I look forward to answering your questions.
    Mr. Meehan. Thank you.
    General.

STATEMENT OF LT. GEN. MARTIN DEMPSEY, COMMANDER, MULTI-NATIONAL 
          SECURITY TRANSITION COMMAND-IRAQ, U.S. ARMY

    General Dempsey. Good morning, Chairman Meehan, Ranking 
Member Akin, honorable members of the subcommittee, especially 
Congressman Skelton.
    It is always good to see you again, sir.
    I would like to actually begin this morning by introducing 
my wife, Deanie, who is seated just over my left shoulder here. 
As you know, we have been apart most of the last 6 years, and 
she told me today that she wouldn't allow me to go anyplace 
unless she could accompany me. So I invited her. And I hope----
    [Applause.]
    She has been, for my entire 33-year career, a real champion 
for soldiers and their families and, in particular, in the last 
6 years, through some very difficult times, has stood steadfast 
and loyal behind America's soldiers, sailors, airmen and 
Marines. And I want to thank her for that.
    Also with us today is my aide de camp, who has stayed with 
me for the last 16 months in Iraq, and his wife, Megan. And so, 
I want to introduce them as well, the next generation of senior 
leaders of our armed forces.
    Thank you for the opportunity to come and speak with you, 
answer your questions and share my thoughts on the state of the 
Iraqi Security Forces after three years of service in Iraq.
    Let me first say that I am absolutely grateful for the 
opportunity to spend some time on our wonderful American soil. 
I left the Pentagon on the 10th of September 2001, and except 
for a few weeks of leave here and there and two opportunities 
to appear before the Congress, I have not been home since.
    I have spent nearly 2 years in the kingdom of Saudi Arabia 
as the senior adviser to the Saudi Arabian national guard. And 
I have spent almost 3 years in Iraq, the first 13 months as the 
commander of the 1st Armored Division, and as the first 
commander of MND-Baghdad, and then for the last 22 months as 
the commander of Multi-National Security Transition Command-
Iraq.
    I arrived back in the United States yesterday. And after a 
few weeks' leave, I will report to United States Central 
Command as deputy commander.
    And thank you for those of you that had a hand in 
confirming me for that position.
    My intent today is to speak frankly with you about my 
perspectives on the challenges we face in developing Iraq's 
Security Forces. Let me begin with a brief update on where we 
are now and how we got there with regard to those security 
forces. And following that I will, of course, be happy to take 
your questions.
    The Multi-National Security Transition Command-Iraq, or 
MNSTC-I, as you know it, in coordination with coalition forces, 
the North Atlantic Treaty Organization and the government of 
Iraq's Ministries of Defense and Interior, develop security 
forces along three lines of operations.
    The first is generating units and individual replacements. 
The second is developing institutional systems and processes 
necessary to support the fielded forces. And finally, 
professionalizing that force and its leaders.
    We achieved our initial target for Iraqi Security Forces 
generation of 134,700, what we call the objective 
counterinsurgency force, or military forces, and 188,300 
objective civil security forces, which are police, in December 
of 2006. However, based on changes in the security environment 
in the latter half of 2006, the two security ministers, in 
consultation with MNSTC-I, adjusted our 2007 end-strength goals 
for both the army and the police.
    I will discuss this in detail later in the statement and, 
of course, during questioning.
    We are now working to develop an Iraqi military of just 
over 190,000 and an Iraqi police forces of approximately 
195,000. We are on track to achieve these force levels by the 
end of this calendar year.
    Currently we have trained and equipped 154,000 military 
forces and 194,000 police forces. It is important to note that 
we are simultaneously building both new units and training 
individual replacements. Annual attribution is approximately 15 
to 18 percent in the army and 20 to 22 percent in the police.
    MNSTC-I has a comprehensive four-phased plan to build, 
enhance, develop and transition the Iraqi Security Forces to 
the government of Iraq's control as soon as possible. As you 
know now, such phases are a useful concept in developing plans, 
but they are rarely cleanly separated and never entirely 
sequential in execution.
    Planning phases such as these almost always overlap one 
another as progress is made and as efficiencies are exploited 
in any given phase. Stated another way, we work in multiple 
phases simultaneously.
    Let me summarize the goals of each of these phases.
    Phase one, the build phase, ensures that initial Iraqi 
Security Forces are organized, trained, equipped and based.
    Phase two, or enhance, makes the generated forces better, 
with a focus on adding capabilities, including armor protection 
and increased weaponry, as well as advanced training to prepare 
them for full operational control.
    Phase three, or the development phase, ties the tactical 
formations to a developed, institutional architecture, thereby 
setting the conditions for their transition to self-reliance.
    And phase four, or transition, based on a common 
understanding by both sides--that is, the government of Iraq 
and the government of the United States--of our long-term 
security relationship, then transitions internal security 
responsibility to them, while we also assist Iraq begin to 
prepare to defend itself against external threat.
    Now, we have learned many important lessons, and we have 
made many adaptations along the way.
    We have learned that the development of security forces is 
analogous to a three-legged stool. The first leg is a standard 
curriculum of training so that every soldier and every unit 
gets the same skills. The second leg is embedding transition 
teams. And the third leg is partnering units with coalition 
forces.
    And the distinction between the two--that is to say, the 
transition teams and the partner units--is very important. A 
partner unit will provide instruction and education and 
expertise by mentoring and role-modeling, but that is only one 
facet of that partner unit's broader mission. An embedded 
transition team, on the other hand, in contrast, is dedicated 
completely to the development of that Iraqi unit.
    We have learned that transition is essentially a balancing 
act. On one side, you have assimilation and one the other side 
is dependency. Transition too soon and the system falters. 
Transition too late and the system becomes dependent on the 
coalition.
    Through 2005, the United States government was paying the 
bills for all Iraqi life support and for all Iraqi Security 
Forces. Now, because we had helped them build their 2006 budget 
and knew that they had the necessary funding, we made it a goal 
in 2006 to transition responsibility for Iraqi soldiers and 
policemen over to Iraqi control.
    It was painstaking and difficult work for reasons that 
could, if you like, come out in questioning. But by the middle 
of 2006, the MOD and the MOI had assumed control of all life 
support across the entire Iraqi army and police.
    We learned the importance of developing both the tactical 
and the institutional sectors of the military and police forces 
simultaneously. In Iraq today, soldiers and police are being 
paid by the central government. Their life support is being 
provided by the central government.
    The Ministries of Defense and Interior are functioning 
institutions who feel themselves accountable for the security 
of the Nation and for their security forces.
    Challenges remain, but we should not underestimate the 
importance of having a coherent, accountable and responsible 
Iraqi chain of command from individual soldier and policeman to 
the ministers of defense and interior.
    We have learned that the business practices of the Iraqi 
government are horribly inefficient and ineffective, and that 
there is no pool of skilled civil servants to overcome them in 
the near term.
    Among our goals in 2007 is to transfer equipment, 
sustainment and infrastructure costs or expenditures to the 
Iraqi responsibility. To do that in an environment of unskilled 
bureaucrats and bad business practices, we convinced the 
government of Iraq to reach out to us as their acquisition and 
procurement agents, and to enter into foreign military sales 
program with the United States.
    Thus far, the Iraqis have invested about $1.7 billion into 
foreign military sales. We anticipate they will invest another 
$1.6 billion this year.
    Let me put that into perspective. 2007 is the first year 
that the government of Iraq will spend more on its security 
forces than the United States government. And they will 
outspend us at a rate of two to one. They are now spending more 
money on themselves than we are spending on them in the 
security sector.
    If the government feels itself accountable to the soldier 
and understands its responsibility to provide him resources, 
then the soldier in turn is going to feel his loyalty toward 
the central government. We consider this an important measure 
of progress.
    Both tactical and institutional performance are improving. 
They must now be tied together.
    The big challenge in 2008 will be finding an adequate 
number of leaders to lead this institution that is large and 
increasingly capable. We have been growing young second 
lieutenants through the military academies for about 3 years. 
But it is very difficult to grow majors, lieutenant colonels 
and brigadier generals; it simply can't be done overnight. So 
we have had to rely heavily on officer recalls and retraining 
programs.
    However, the pool of qualified recalls is beginning to thin 
out. Several generations of Iraqi leaders, the kind of leaders 
we are looking for, were culled out by the Saddam regime and 
the Iran-Iraq War, and many fine Iraqi military and police 
leaders have been killed and wounded in the ongoing fight. We 
are working with both the minister of defense and the minister 
of interior to address this challenge.
    The Iraqi Security Forces have improved in their capability 
to assume a greater share of the responsibility for security 
and stability in Iraq. My overall assessment is that many 
units, especially the Iraqi army units, have become 
increasingly proficient and have demonstrated both their 
improved capability and their resolve in battle.
    They continue to be hampered, however, by a lack of depth. 
Iraqi army and police units do not have tactical staying power 
or sufficient capability to surge forces locally.
    The ISF also have shortages of leaders from tactical to 
national level, which I have already touched upon.
    In addition, their logistics infrastructure is immature, 
which limits their ability to function effectively against a 
broad array of challenges, particularly when asked to move 
about the country.
    In October 2006, the Iraqi prime minister determined that 
his security forces were insufficient in size and structure to 
support Iraq's security needs. He requested support for a 2007 
growth plan of 24 additional battalions and an increase in end 
strength of approximately 45,000.
    Additionally, he requested assistance in procuring 
additional special capabilities, such as route clearance 
equipment and electronic countermeasures, to meet the 
persistent challenge of terrorist threats.
    He also decided at that time that the tactical combat 
battalion should be manned at 110 percent strength. This was to 
posture them to be able to handle some of the unique aspects of 
this force.
    For example, on average, about 25 percent of the force is 
on leave at any given time, and they are not going on vacation. 
It may sound simple, but a significant portion of this is for 
soldiers taking leave to physically take money home to their 
families in the absence of things like direct deposit and 
electronic banking.
    Another example is that seriously wounded soldiers are not 
moved off unit rolls because there is no functioning retirement 
system in Iraq. Moving them off the rolls, therefore, would 
impose incredible hardships on soldiers and their families who 
have made enormous sacrifices.
    Within the past month, the commanding general of Multi-
National Force-Iraq decided that based on lessons of Operation 
Fardh Al-Qanoon in Baghdad, it indicated the clear need to 
increase manning levels of these combat battalions up to 120 
percent strength, or an additional 20,000 soldiers.
    The ongoing 2007 growth plan addresses many, but not all, 
of these structural gaps in the Iraqi Security Forces.
    MNSTC-I's current assessment is that the Iraqi Security 
Forces will require growth in scope and scale similar to what 
we accomplished in 2007 in order to ensure sufficient force to 
protect the population throughout Iraq, overmatch the enemy, 
provide depth necessary to deploy forces around the country, 
and implement an annual training and reconstitution program.
    The threats faced by the government of Iraq have proven 
both resilient and adaptive. We have identified key capability 
gaps in the Iraqi Security Forces. MNSTC-I is working to 
improve the quantity and the professionalism of the ISF's 
leaders, address the issues of logistics and sustainability, 
ensure combat overmatch, and provide Iraq's security leaders 
the ability to project power with sufficient rotational 
capability to meet the challenge facing them.
    Coalition forces currently cover these capability gaps. 
Failure to address these Iraqi security capability gaps will 
lock U.S. forces into tactical battle space and greatly 
increase the risk to the Iraqi Security Forces should the 
coalition presence decline in the near future.
    In reflecting on my time in Iraq, I think I can identify 
four key decisions that we have made in the effort to build 
effective security institutions.
    The first was the formation of MNSTC-I to professionalize 
and standardize the growth of Iraqi Security Forces.
    The second was the decision to embed advisory teams by 
simply partnering with them.
    The third occurred on the 1st of October, 2005, when MNSTC-
I assumed responsibility for developing the Ministry of Defense 
and the Ministry of Interior's capacity and capabilities.
    And the fourth and most recent was the recognition in late 
2006 of the inability by the Iraqi government to execute their 
budget and, therefore, successfully enrolling them into the 
United States foreign military sales program in order to assist 
them in growing the force and executing their budget.
    I would like to close with some thoughts about the Iraqi 
leadership and about the Iraqi people.
    The leaders of Iraq and their people are working in an 
incredibly challenging environment and a dangerous environment. 
They risk their lives every day as they carry out their 
nation's business. And they live with the constant fear of 
having their families attacked.
    The people of Iraq have demonstrated both resolve and 
resiliency in withstanding the assaults of extremists, and seem 
to be committed to make a better life for themselves, their 
families and their nation.
    The leaders and the people of Iraq have not given up on 
themselves. We should not give up on them.
    I again thank you for the opportunity to appear before you 
today. And I am now prepared to take your questions.
    [The prepared statement of General Dempsey can be found in 
the Appendix on page 56.]
    Mr. Meehan. Thank you very much, General. And thank you 
very much for your service to our country.
    General, would you be surprised to hear that in our 
interviews and surveys, younger transition team members 
oftentimes express frustration with either good Iraqi police 
service commanders who were transferred or fired without any 
explanation, or with bad ones who if removed were transferred 
or promoted by MOI?
    We just heard a lot of these stories about good people that 
all of a sudden are gone, or bad people that are promoted.
    General Dempsey. No, sir. I am not surprised a bit. In 
fact, I deal with those--or, I did deal with those questions 
weekly, I would say.
    Mr. Meehan. What do you do if you are made aware of these 
types of frustrations as we have been? Specifically, how do you 
deal with that?
    General Dempsey. Well, what we do, sir, is we make an 
inquiry of the system to learn about the details. In other 
words, sometimes we will actually--the transition teams will 
hear about these things before we do at the ministerial level.
    Now, when we walk it backwards to determine the basis on 
which decisions were made to replace leaders, we find that 
there are just as many instances where there is a very good 
reason for the replacement as there is a bad reason or an 
insidious, let's call it, reason. There are cases where the 
change has been made for reasons that make us uncomfortable. I 
will give you example of two of them.
    The commander of the 9th Division, Major General Bashar, 
who we considered to be one of our finest commanders--this was 
in my first year there--was replaced and moved into the 
Training and Doctrine Command.
    It was done in a way that made it impossible for us to 
understand it before it occurred. And we do always go back and 
ask them for transparency before the fact, because we are 
making quite a significant contribution to their security and 
we think they should be transparent with us.
    We found out that he was moved because they were trying to 
balance the demographics of the 10 divisions at the time, and 
that they felt that he could provide a better service in the 
Training and Doctrine Command.
    Now, the reason given when the transition team identified 
it, the transition team was sure that he was being moved 
because he was a Sunni Arab. It does not appear to be the case 
in retrospect, or upon reflection, that that was the case.
    However, there are also cases where it is very clear that 
certain leaders are put into place because the government 
believes that it needs to have someone loyal to it above all.
    And so, for example, in the intelligence architecture and 
in the operations architecture, you will find the government of 
Iraq seeking to, in their view, balance the demographic to 
account for the fact that the population of Iraq is 
approximately 65 percent Shia.
    Now, what becomes difficult for us is to determine whether 
they are doing that out of a sense of that it is their turn, if 
you will, or if they are trying to make absolutely sure that in 
the future they will never put themselves in a position of 
being dominated by the minority, or if it is being done to 
disadvantage the other groups, the Kurds and the Sunnis. And we 
are very careful to both understand the rationale and to watch 
the conduct after the fact.
    It is a fact that there are leadership changes going on all 
the time. When we confront them, they will say to me--in fact, 
most recently, they said to me, ``Well, look, General, you have 
been here for two years and you are going home, so we want to 
adopt a similar policy: Two years and you move on.''
    It is hard to say sometimes, sir.
    Mr. Meehan. How are negative appraisals of Iraqi units and 
commanders communicated from the MTT to the Iraqi assistant 
group chain over the MNSTC-I chain and its links with the MOD 
and the MOI?
    How are these, sort of, negative appraisals of these 
units--what is the chain like?
    General Dempsey. The transition teams do the transition 
readiness assessments, we call them, on a monthly basis, 
against a series of metrics that I think you are familiar with.
    I know you didn't get them as quickly, certainly, as you 
wanted to see them. But I am told that we have moved beyond 
that and you do have access now to the TRAs and the background 
data that forms them.
    But in any case, the TRA itself is done by the transition 
team and then discussed with the Iraqi counterpart leader, 
passed over to Multi-National Corps-Iraq, Lieutenant General 
Ray Odierno, who has a cell in his headquarters that collates 
the data.
    And then, on a monthly basis, there is a briefing that 
General Odierno gives to General Petraeus. I sit in on it. And 
at that briefing, we discuss the movement, either forward or 
backward, of units to battalion level.
    Now, near simultaneously, I have a staff--we have 
approximately 100 transition team members in the MOI and in the 
MOD, the joint headquarters. We do exactly the same thing for 
the two security institutions.
    And then, once a month, we brief General Petraeus on 
institutional progress, or the lack of progress, thereby giving 
him the ability to see both ends of this security enterprise, 
the degree of tactical progress or the degree of institutional 
progress.
    Mr. Meehan. Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman.
    My impression, just from having sat in these hearings for 
some considerable period of time, the first thing is that it 
seemed like the police sector was a lot harder than just the 
regular security forces. Somehow the Iraqis understood a 
soldier, but they didn't seem to understand the concept of 
police as much. So that seems to have been difficult all the 
way along the line.
    Is that, like other things in Iraq, a little spotty, 
depending on your geography? For instance, the way the Marines 
in Anbar handled it, is that a little different than the way it 
is by the Army in Baghdad in the way that the police are used? 
Is it true that the police, particularly in a place like 
Ramadi, now, where the sheiks are heavily involved in that, 
that that is better?
    And so, that is just the first question, just comment on 
police versus the other.
    The second question I have is, if you stand way back from 
what we have done, what has happened over a period of years is 
we have put a lot of Americans in contact with a lot of Iraqi 
people at all different levels of government and different 
kinds of professional positions. To a certain degree, are some 
of our philosophies of a little bit more peaceful, democratic 
kind of society, are they rubbing off over there in the long-
term sense?
    If we were to withdraw over some period of time, have we 
left something behind where they are going to be thinking a 
little bit differently?
    I suppose I am asking you to speculate a little bit, but 
you are in a better position to do that than some of us are.
    Thank you, sir.
    General Dempsey. To the first one, sir, on the police and 
does it vary around the country, it certainly does. We say 
there is no template in the development of almost anything in 
Iraq.
    I mean, as you know, the police are actually performing 
remarkably well in Mosul, for example, working side by side 
with Iraqis. There is only one U.S. combat battalion in Mosul, 
which is the second or third largest city, depending on what 
you believe about Basra.
    And so, in the second or third largest city, you have 
police forces in Iraq in charge of local security, who call 
upon the army, the Iraqi army, if they have a problem, who, in 
turn, calls upon that one coalition battalion if they have a 
problem.
    And that is, of course, where we would like to be 
throughout the country.
    But, as you say, with police, what we have learned is there 
is no history in Iraq, and I might even say in the region--
because I have traveled extensively in the region--of police 
that are what you and I would describe as a force that lives to 
protect and serve the population.
    Police forces in the region are notably corrupt. And they 
get that way because, as we say, they live at the point of 
corruption.
    The difference between building an army and building a 
police force is that an army is built with the intent that it 
will move around the country and it has a national fabric and 
it has national loyalties.
    Police forces live locally. Their families live locally. 
They don't really have a sense of nation. They have a sense of 
local community, and all of the influences that are brought to 
bear.
    So it has been very challenging.
    But I would also say, Congressman, that all local 
influences are not negative. And as we see now playing out in 
Al Anbar, the local influences are starting to become something 
we can leverage positively.
    The second part, sir, about are some of our values rubbing 
off on our Iraqi counterparts, I would say absolutely.
    But in a situation where there is such levels of violence--
levels of violence that, frankly, sometimes it is mind-numbing 
to me that they accept them. They do have a tolerance for 
violence that exceeds our ability to understand it.
    In that environment, I think they crave security to the 
point where they will often sometimes wax nostalgic about the 
Saddam Hussein days. You will hear people say, ``You know, we 
were a lot more secure and safe during the Saddam regime.''
    Of course, when you discuss that with them they quickly 
come to the conclusion that they are indeed better off today. 
But it is not without this certain nostalgia for efficiency and 
security that will take time for them to overcome.
    Mr. Meehan. Thank you, General.
    Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    General Dempsey, I met with--there is a group of, I think 
it is 54, Arkansas World War II veterans that have been in D.C. 
for the last 3 or 4 days. PBS is going to be airing a 
documentary about them in conjunction with the Ken Burns series 
on World War II.
    But they brought these 54 men and women up here, and they 
went to Arlington and the World War II Memorial and had 
meetings. And I visited with a fair number of them over the 
last 3 or 4 days.
    But when I think about the amount of time that you have put 
in on this war in Iraq and that your family has served along 
with you in your absence, I mean, it compares with, you know, 
the great American fights of the past. And I appreciate your 
service.
    And I think sometimes we Americans in civilian life forget 
the burdens that are being borne as the years go by in this war 
on terrorism in both Afghanistan and Iraq. And so we appreciate 
your service.
    On my first trip to Iraq, I was with Congressman Thornberry 
on a CODEL that he led. And we met with you when you were with 
the 1st Armored Division. And you gave a metaphor in describing 
how things were going which I stole and used in an abundance of 
speeches back home.
    And what you said was that you felt like--and this was 
several years ago, now--you felt like that the American 
military, in conjunction with our allied forces, were pushing a 
big boulder up the hill and that progress was being made, that 
the boulder was indeed going up the hill.
    The open question for you at that time was, will we 
actually get the boulder to the top and see it roll down the 
other side, or will something happen and that big boulder will 
come rolling back on top of us?
    I think clearly we are not to the top of the hill. Is the 
metaphor still at work? Do you have a new metaphor? Or has it 
been rolling back down on top of us for the last couple years?
    General Dempsey. I am sure I have other metaphors.
    Dr. Snyder. I would like to hear them. We are always 
looking for wisdom here.
    General Dempsey. But the metaphor or Sisyphus may, in fact, 
be the right one still. And we have seen it roll backwards on 
us on occasion. It rolled back on me in 1st Armored Division in 
April of 2004 with the uprising of the Mahdi militia. I think 
it certainly rolled back on the entire effort in February of 
2006 when the Samarra bombing took place.
    And so those are two points at which I would absolutely say 
that this boulder that we are trying push up the hill rolled 
backwards.
    I think to both our credit and to our Iraqi brothers and 
sisters' credit, though, that no one has given up on it. I 
mean, we have still got our shoulders to that boulder, you 
know, rolling it up the hill.
    If I sound, you know, cautiously optimistic here today, it 
may be that I have been there too long. I don't know. But in 
the process of being there this long I have come to gain a 
certain faith in Iraq that I, frankly, didn't have traveling in 
the rest of the region.
    You may have heard me say, Congressman, that if it is in 
United States' national interest--and I will promise not to 
step on Mr. Kimmitt's equities here in terms of policy--but if 
it is in United States' interest to have a strategic partner in 
that part of the world, which is a very dangerous part of the 
world, situated with Iran, Syria, the volatile Mideast 
conflict, and this, let's face it, existence of radical Islam 
that believes itself to be completely--that their way of life 
is completely anathema to ours--if it is important to have a 
strategic partner in that part of the world, Iraq should be 
that partner.
    It has oil, of course. But more important, it has water, it 
has agriculture, it has human capital, it has a very fine 
education system, and it has a history that is as rich as any 
in the world, and who understand that history.
    And so I think that the metaphor applies. There will be 
times when this boulder rolls back. It is probably rolling back 
a bit right now in Baghdad. But I don't think it is going to 
roll over us, and I think we are going to be okay.
    Dr. Snyder. The question in my mind several years ago when 
we met in Baghdad, I had this picture of the boulder being 
fairly close to the top of the hill. And now I think there are 
great expanses of the American people think that the top of 
that hill is a long, long ways to go.
    And I appreciate your comment about cautious optimism. I 
think in terms of what the American people are looking for and 
the work that you have been doing on this training is what is 
going to get us finally there, that we can declare this done.
    We are going to go around several rounds. I wanted to ask 
one final question this round.
    How do you see the quality and numbers and experience of 
our U.S. trainers, our troops that are doing the training? Any 
comments you have about that now. And we may want to expand on 
that as time goes by.
    General Dempsey. Okay.
    By the way, the answer to your first question there, sir, 
about is it closer or further away from the top of the hill, 
the real key for us, I think is to convince the American people 
that there is a point in time where we can stop doing the 
tactical job for them, we can stop running patrols, we can stop 
manning checkpoints. I think that that part of it is closer, 
far closer, than when you and I spoke a couple of years ago.
    The institutional side, in other words, a mature 
institution that has a functioning pay, promotion, logistics, 
contracting sector, they are going to need some help in that 
for a long time.
    It is probably worth noting that when I was in Saudi Arabia 
doing this program, I was there in year 28 and 29 of that 
program. But it is a program that works at the national level 
to help the government of Saudi Arabia build its architecture, 
not necessarily running security on the streets of Riyadh.
    And I think that is where, it seems to me, we can see some 
progress. And I think that is probably what will shape our 
long-term relationship. But I defer to Mr. Kimmitt on that.
    As far as the second part----
    Dr. Snyder. U.S. trainers.
    General Dempsey. Yes, about the trainers, you know, we have 
actually worked through this in several different ways and have 
evolved over time.
    Initially, they were all individual augmentees, many of 
whom were drawn out of the reserve component. And then we 
migrated to a process where they were still individual 
augmentees, but they were pulled into Fort Riley, Kansas, into 
a center of excellence, so there would be a common standard for 
the transition teams.
    And now I think we are moving toward an evolution where the 
transition teams are what we would describe as out of hide, 
which is to say, as the Iraqi Security Forces become more 
mature, as the--you know, and what they really need is help not 
necessarily in knowing how to enter and clear a house, but 
rather they need help in how to perform administrative and 
logistics functions, I think you will see that that evolution 
will move into the future.
    So my report to you is that we continue to learn as we go, 
not only in how to build them but how to partner with them.
    Mr. Meehan. The gentleman from Florida, Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman.
    Continuing the metaphor of the boulder and the mountain, 
General, could it also be that the boulder has not rolled back, 
but maybe we got over whatever that peak was and found out, 
when we got to the other side, that there may have been a 
higher hill on the other side?
    General Dempsey. Well, that is the risk of metaphors, I 
think, Congressman. They are never-ending.
    Sure, that could very well be. You know, there certainly is 
reason to be concerned about the depth of what was always, 
probably, some historical animosity, under the surface, between 
the Shia and the Sunni.
    But what I have been struck by is that there is just as 
large a body in Iraq who have, in the past, intermarried. In 
fact, many of my Iraqi counterparts are of one sect and married 
to another sect.
    There is actually a history in Iraq of intermarriage among 
the sects that is clearly somewhat retarded now, or slowed or 
discouraged, perhaps, even, by families, but it is there. And I 
don't think it would take too much progress to give them hope 
that they could return to that.
    But, sure, there are other hills, potentially, to navigate 
here, as we have discovered recently.
    Mr. Miller. As you move to your new position at CENTCOM, I 
would be interested in hearing from you what your 
recommendations may be to Admiral Fallon, in regard to the 
CPA's problems, I think, if you would, that they had in 
disbanding the army, de-Baathifying the government, and 
allowing so many young men to become unemployed.
    Your comments?
    General Dempsey. Well, actually, I would really rather 
defer to the way you phrased it at the beginning. I probably 
ought to share those with my new boss before I share them with 
you, actually.
    Mr. Miller. Will you come back and share them with us after 
you share them with the admiral?
    General Dempsey. I will. Despite what you may think, I have 
never been loath to come back to the Congress, because my wife 
lives at Fort Belvoir, so it was always an opportunity to say 
hello to my wife.
    Mr. Miller. Thank you, General.
    Mr. Kimmitt, if you would, we talk about the United States 
and partnership with Iraq, and if there were a precipitous 
withdrawal from Iraq by United States and coalition forces, who 
would you think the new partner with Iraq would be if we were 
not there?
    Mr. Kimmitt. Well, sir, I think the first question would 
be, if there was precipitous withdrawal and created a security 
vacuum inside that country, the real question is who would fill 
that. And it would probably be filled by both sides of the 
border in terms of the Sunni Arabs as well as the Shia 
Persians.
    It is clear that taking a look at whose security is at risk 
from an unstable Iraq--which is exactly what would happen 
should there a precipitous withdrawal--there would be numerous 
countries in the region that would feel their security 
interests at risk and possibly feel the need to preemptively or 
positively get involved inside that country.
    One could imagine that--well, I think we could, sort of, do 
a complete walk around the neighbors and see that each of one 
of those countries would have a stake in trying to, if not re-
establish order, at least take a stake inside the conflict.
    It would not, to my mind, be unlike what we saw in the 
early 1990's in Bosnia, where the Serbs were heavily involved, 
the Croats were heavily involved and external forces were 
heavily involved as well.
    So that is one of the reasons that we continue to seek a 
conditions-based handover of security responsibilities to the 
people of Iraq themselves, characterized predominantly by the 
work that General Dempsey and General Petraeus are doing with 
regards to the Iraqi Security Forces. Give them the time, give 
them the chance, give them the opportunity to take on this 
responsibility so that at that time when they can take over 
more and more of the responsibility, our forces become 
redundant.
    Mr. Meehan. Thank you.
    The gentlewoman from California, Mrs. Davis.
    Ms. Davis of California. Thank you, Mr. Chairman.
    Thank you very much for being here, General Dempsey and 
Secretary Kimmitt.
    And particularly I am delighted to welcome your wives here 
as well. We know that our men and women in uniform and their 
families have really been the sole sacrificers of this war. And 
I want to thank you for that.
    I think that Chairman Skelton mentioned briefly in his 
remarks, and I wonder if you could speak to that, the situation 
in Al Anbar and the fighting with coalition forces of the Sunni 
tribesmen.
    Could you tell us a little bit more about how you see that 
working, actually? And, in fact, are there situations where you 
wonder, you know, who in fact they are actually fighting for? 
What are the challenges, liabilities and benefits?
    General Dempsey. Congresswoman, this is one where I think I 
would be happy to speak candidly with you about what is 
happening and some of the challenges and some concerns. But I 
think that probably would be best done in closed session.
    Ms. Davis of California. Okay. Then let me turn for a 
second to the metrics. You mentioned and I know were quoted in 
the National Journal as saying that somewhere the annual 
attrition rate is about 15 to 18 percent in the army and 20 to 
22 percent in the police.
    What do we know about that attrition? And what in fact 
happens to those individuals? Are we able to track them?
    I was a little surprised by the numbers as well, because on 
this committee we have tried very hard to get a real handle on, 
how do you get those numbers?
    I know there are some biometrics that are being put into 
place now. But what do we know about the folks who don't 
return? And, in fact, do we know that they actually are 
fighting with militias or against the U.S. and coalition 
forces?
    General Dempsey. Yes, ma'am. I would describe 
accountability of people and accountability of equipment as 
things that have gotten better over time; that there has been 
an evolution of improvements--not a revolution--an evolution of 
improvements in personal accountability and equipment 
accountability over time.
    In my early days in Iraq in 2003, we were quite interested 
just simply to get some Iraqis on the street with us and 
procured weapons for them or captured weapons and gave them to 
them. We were paying them out of CERP in those days, as you 
recall.
    But there quite simply wasn't any accountability in those 
early days. No accountability, fundamentally, because there was 
no Iraqi Ministry of Defense, for example, to tie it to.
    Over time, we have introduced automated databases that now 
give us the ability to, to some degree of accuracy--not yet 
where we need it to be--to compare payroll data, for example, 
to data that we get from the MTTs in the units themselves.
    And by the way, in the era before MTTs, we could issue 
things to the division level, but as it went beyond that, we 
lost some visibility on it.
    So, I mean, this has been, again, one of those places where 
we and they have gotten better and better, to the point where 
now the payroll generally in the MOD matches the people we 
believe are actually serving.
    In the MOI, however, the payroll exceeds the trained and 
equipped number by tens of thousands. In other words, there are 
tens of thousands more policemen serving in Iraq than have been 
trained and equipped by us, and it is one of the things we are 
working with the MOI to get a handle on in 2008, or help him 
get a handle on.
    Now, as for the crosschecking of data, we made an 
investment about six months ago to make sure that the vetting 
instruments we used when we brought police and army in could be 
cross-referenced with the vetting information at other places, 
so we could determine how many of those that we, at some point, 
trained and equipped ended up in custody down the road.
    We are very close to being able to do that. We can do it 
manually now, but we want to be able to do it in a database. 
That doesn't exist, though, for people who might end up in an 
Iraqi prison.
    So it is something we are aware of. I couldn't give you a 
number right now, but we are, with our Iraqi counterparts, 
working to add some granularity to that process.
    Ms. Davis of California. And then you are able to track 
individuals that have been detained or killed who, in fact, 
were trained by the coalition forces as far as you know?
    General Dempsey. No, I wouldn't say that just now, if you 
were to give me a name of someone in a prison, I could not run 
it backwards to find out if he at one time had been in 
security--I mean, I could do it manually. At entry, they 
provide four names. There are some things that make it pretty 
difficult to track people that way. But we are very close to 
having a database that will allow us to do that.
    Ms. Davis of California. Thank you.
    If I could just turn for a second to the issue of 
protection for the Iraqi soldiers and police, but more for the 
military, we have had some hearings here where we looked at the 
protection vests, the SAPI plates worn by our military. And I 
understood from that hearing that in fact that equipment is not 
being used by the Iraqis.
    How would you characterize the equipment that they are 
using? And if they had better equipment, would there be fewer 
deaths among the Iraqis, the soldiers that are fighting?
    General Dempsey. Yes. Yes, ma'am.
    Again, this is a thing where we continue to make progress 
and they make progress. They are all outfitted with individual 
kit, we call it OCIE, that is similar to what we would issue an 
American soldier. They have body armor. They have helmets. As 
you know, they are armed with personal weapons. As you may not 
know, they have just taken the decision to procure U.S. 
personal weapons.
    But their individual kit that we procure for them is of a 
standard consistent with ours; not quite the same, and we have 
the best kit in the world. I think you would actually be 
heartened to hear that.
    Now, on their own, though, they have taken some donations 
from other nations that in some cases has provided lesser 
protection. They have also procured some things on their own 
before we got them into this foreign military sales program 
with us.
    They made, frankly, some very poor decisions in procurement 
and got some very substandard equipment. That stuff is still 
out there. And it will take some time for them to replace.
    I would say, though, that, for example, they have 
approximately 2,700 up-armored Humvees now that are of the same 
standard as ours. They have several thousand armored personnel 
carriers, all of which have armor protection similar to ours; 
not exactly the same in every case.
    Again, we have the best equipment in the world. But they 
are far more protected than they have ever been.
    And by the way, that means ever been ever, even before we 
went to Iraq in 2003.
    Ms. Davis of California. Thank you.
    Thank you, Mr. Chair.
    Mr. Meehan. Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    General Dempsey, you were talking a second ago about the 
MOI and the payroll. What I heard you say was that there are 
tens of thousands more serving than have been trained.
    Did you say being paid than have been trained? Or is it 
that the payroll is inflated by folks who aren't really there?
    General Dempsey. Well, there are certainly, we call them 
ghost policemen. There is a percentage that we believe--and I 
could give you an approximation of that.
    Let me give you the background, sir. It might help you 
understand it.
    When Minister Jabr was the MOI, we noted that the police 
forces, particularly in the province, had a tendency to 
overhire, more or less as a jobs program.
    Mr. Conaway. Okay.
    General Dempsey. And so we got him to essentially fix the 
end state of the Iraqi police forces in the provinces based on 
international law enforcement standards in counterinsurgency 
environments. And, I mean, I could drill further down in this, 
if you like.
    But the bottom line is, that is how we came up with the 
number 135,000, spread across 18 provinces, based on the 
population in the provinces and the threat in the provinces. 
Higher threat area, more police: Al Anbar province, 11,330, for 
example; Baghdad, 25,000.
    What happened, though, is because there is still in Iraq, 
as a relatively young government, there is still some 
disagreement between the powers of the center and the powers of 
the province. Some of the provincial governors, in particular 
in places of religious significance like Karbala and Najaf, 
grossly overhired policemen.
    And it only became apparent to the minister and to us when 
the payroll rolled in and they put a demand on the system that 
we hadn't recognized before.
    And, again, we are getting better at databases, automation. 
So we have been getting better and better visibility on what is 
really out there, to the point where now there is something 
between 60,000 and 75,000 policemen on the payroll over the 
authorization and untrained by us.
    And so the question, now, for the Iraqi government is, what 
do they do about it?
    Of that 60,000 to 74,000, certainly 10 to 20 percent of it 
will be ghosts that are just there for payroll purposes.
    Mr. Conaway. Okay. Well, that is a better answer than 100 
percent of them being ghosts. I am hoping that those 50,000 
that are there, that are trained, are actually, maybe, doing 
something. But thank you. I appreciate that.
    General Dempsey. Yes, sir.
    Mr. Conaway. Given as I got here late, I really don't want 
to re-plow previous ground. Is there anything that either one 
of you wished you had said during your testimony this morning, 
that I will now give you a chance to take whatever time you 
want to say anything else that we didn't question you about 
or----
    General Dempsey. Yes, and, sir, thank you for that.
    There was a question earlier, and I don't recall who asked 
it, but I think it is important to note, in the MOI, that we 
assist in the training and equipping, mentoring and advising of 
both national level police forces and local police forces.
    We discussed the local police forces at length. The 
national police forces of Iraq--we have had some real 
challenges with the national police.
    Literally, this is a force envisioned to be something like 
a gendarmerie, approximately 24 battalions of them organized 
into eight brigades now, that can project police power across 
provinces, as provinces go to this thing called provincial 
Iraqi control.
    So, in theory, if the province is being secured by local 
police and they have a problem that exceeds their ability, the 
governor requests assistance; the MOI sends the national 
police. If it exceeds their capability, then they call in the 
army. And so there is this tiered response.
    And we think the national police are making progress, 
though it is the single organization in Iraq with the most 
sectarian influence and sectarian problems.
    And then the other national police force are the border, 
the directorate of border enforcement, approximately 28,000 of 
them. They oversee a 3,100-kilometer border, 14 land ports of 
entry, soon to be 15--we are opening one in Al Qaim--and 
organized with 258 border forts and approximately 143 annexes 
that sit between them.
    So those are the national level police forces.
    Thank you for that, Congressman.
    Mr. Conaway. Mr. Kimmitt, anything you want to say?
    I yield back. Thank you.
    Mr. Meehan. I thank the gentleman.
    The gentleman from New Jersey, Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman.
    I thank both of you for your service.
    And welcome home, General Dempsey. I know you have been on 
the road for a very long time. I had the chance to meet with 
you in Iraq. And please understand how profoundly grateful we 
are to you for your sacrifice and commitment.
    And to Mrs. Dempsey, thank you for your forbearance and the 
struggle the entire family deals with when someone serves 
overseas. We appreciate you very, very much, and wish you well 
in your new post.
    On page three of your testimony, General, you indicate that 
we have trained 188,300 objective civil security forces as of 
December 2006. Does that mean that is the total number we have 
trained or the total number that are deployed somewhere in 
Iraq?
    General Dempsey. It is the former, Congressman. It is the 
total number we have trained.
    Mr. Andrews. Okay. And I know I am re-covering some of the 
ground that Ms. Davis and others covered, but I wanted to do 
that to get my own take on this.
    Do we know how many of the 188,300 are presently working as 
police officers in Iraq?
    General Dempsey. In January of this year, we did what we 
would call in our system a personnel asset inventory. And of 
those police forces that we just cited, we estimated that we 
had lost over the course of the previous 18 months about 32,000 
of them.
    Mr. Andrews. Okay. So we would be down to 156,000 or so. Do 
we know where the 32,000 went?
    General Dempsey. We know which ones were killed in action, 
because they put a demand on the system through a thing that 
they call martyrs pay.
    Mr. Andrews. About how many were that?
    General Dempsey. We believe that we had lost approximately 
8,000 to 10,000 killed in action on the police side.
    Mr. Andrews. That would leave maybe 22,000 living. Where 
did they go?
    General Dempsey. We knew that another portion of them, 
probably another 5,000, had gone, had deserted, essentially, 
had failed to repair.
    Mr. Andrews. And then of the, say, 17,000 or so, what about 
them?
    General Dempsey. Probably another 6,000 to 8,000 of those 
were so severely wounded that they could no longer serve, but 
were being maintained on the rolls so they had a pay----
    Mr. Andrews. Appropriately so.
    General Dempsey [continuing]. Because there is no 
retirement system.
    Mr. Andrews. Appropriately so. So that would leave us with 
maybe 7,000 or 8,000 others. Where are they?
    General Dempsey. They are unaccounted for.
    Mr. Andrews. Okay.
    Is there any basis--and this is not an accusatory question; 
it is a clinical one. Because I, frankly, don't think you have 
been responsible for trouble or failure. I think we have, the 
people that made the policy.
    But is there any basis to believe that some portion of 
those 6,000 or 7,000 are fighting our people?
    General Dempsey. Well, because they are unaccounted for, we 
just don't know, Congressman.
    Mr. Andrews. Yes. But, well, are they totally unaccounted 
for?
    Or, let me ask you a specific question. I think you 
answered this a minute ago. Are we able to go into prisons and 
find people who have been arrested and work backwards from 
there and see how many, if any, of them are people we paid to 
train?
    General Dempsey. We are able to attempt to do it manually. 
And in almost every case, we have been thwarted at some point 
along the way by mostly the tyranny of a manual system. And 
so----
    Mr. Andrews. Why are these data not in a computerized 
databank?
    General Dempsey. As I mentioned earlier, Congressman, they 
are actually in the database. At this point in time, the 
databases don't talk to each other. And I have invested some 
money within the last 6 months to try to make that happen.
    Mr. Andrews. How much have we spent since 2003 on databases 
to deal with the training of Iraqi police?
    General Dempsey. I would have to take that one for the 
record.
    But, for example, in the Ministry of Defense we have a 
system called HRIMS, Human Resources Information Management 
System, that is state-of-the-art and should give us the ability 
to do many of the things you are talking about.
    Let me take that one for the record.
    Mr. Andrews. Mr. Kimmitt, do you know that answer?
    Mr. Kimmitt. No, sir. As General Dempsey said, I think we 
need to take that one for the record to give you the precision 
that you are looking for in that answer.
    Mr. Andrews. When we bought those systems, who designed the 
bid specs, and was there a competitive bidding process?
    I mean, you understand, General--again, I don't accuse you. 
You work with the tools we gave you. But we have spent a huge 
amount of money. And we spent it on databases that can't tell 
us by computer operations whether people who are sitting in 
Iraqi prisons are people we paid to train. Now, I hope the 
answer is none of them are, but I doubt it.
    And let me ask one other question. For how many of the 
188,300 that we trained did we have biometric data that we 
collected when they went into the training process?
    General Dempsey. All of the--100 percent. We would have 
some biometric data, either through AFIS (Automated Fingerprint 
Identification System), which is a fingerprinting system----
    Mr. Andrews. Yes.
    General Dempsey. Even in the early days, we had AFIS. As we 
have progressed, we have actually begun to use retinal scans. 
So, again, that has been evolutionary.
    Mr. Andrews. My time has expired.
    But, Mr. Chairman, what I would ask if the witnesses could 
supplement the record by telling us what data the Department of 
Defense has as to what happened to these 188,300 people given 
their biometric identity. How many are dead? How many are 
wounded? How many are in prison? How many are still serving on 
the police force?
    So we can get some notion--this is not just a theoretical 
interest, obviously, that we are going to have some continuing 
national stake in the training and quality of these police 
officers. Irrespective of our involvement, we are going to have 
some stake in that.
    And, General, I think you have done an extraordinarily good 
job with extraordinarily bad tools and policies to work with. 
And I thank you for doing that.
    Mr. Meehan. The gentleman from Maryland, Mr. Bartlett.
    Mr. Bartlett. Thank you, Mr. Chairman.
    If we were to ask the Iraqis how many trained and equipped 
police and how many trained and equipped security forces they 
needed so that we could leave, would they give you that number?
    General Dempsey. I think, Congressman, that they would 
answer in a relatively unsophisticated way.
    For example, we are in those discussions with them all the 
time. If you were to ask their chief of defense forces, he 
would say, ``We need a brigade in every province or a division 
in every region.'' I mean, they have this former regime notion 
that bigger is better. And in some cases, by the way, in a 
counterinsurgency environment, bigger is better.
    But I would suggest to you that what MNSTC-I does as a 
living is try to help shape the answer to that question so that 
they can get what they need, but not more.
    In fact, part of my mission statement is to build security 
forces that will be sustainable by the government of Iraq over 
time. So there is a degree of fiscal reality. We know what 
their budget is. It was $32 billion last year. We know what the 
International Monetary Fund will allow them to spend in the 
security sector. And we bumped them right up against it so that 
they can sustain, over time, what we are building with and for 
them.
    Mr. Bartlett. If we were to ask you how many of these 
forces they needed so that we could leave, what would you tell 
us?
    General Dempsey. What I would tell you, sir, is that we had 
a target for the end of 2006, which I have mentioned 
previously. We made an adjustment because one of the 
assumptions we made early on, in my first tour, was we would 
build security forces for a short war, partnered with us, 
against an environment of decreasing levels of violence, 
because we believed we could help them drive the levels of 
violence down, and therefore we needed this many security 
forces to take over responsibility.
    And the end of 2006 or the middle of 2006, we took a look, 
and levels of violence were not coming down. In fact, they were 
increasing. We also saw some of the problems with units 
deploying around the country, and we made adjustments. And with 
our Iraqi counterparts and with their funding, largely, we have 
got them on a path to grow an additional 45,000 military forces 
this year.
    We just recently completed another assessment looking to 
2008. The reason we did it now is both because General Petraeus 
is adapting his strategy, and we also did it now because the 
government of Iraq's budget cycle runs June through August, and 
we want to make sure that we inform their budget and what we 
think they need in 2008.
    I am not yet prepared to give you a number, but I would 
say, as I said in my statement, that it is pretty clear to us 
that for them to take over responsibility in the face of 
declining coalition presence, at some point, they need to be 
slightly bigger.
    Mr. Bartlett. General, our constituents are very uneasy 
with terms like ``stick it out'' and ``stay the course.'' They 
have no idea what that means. If that means we are going to be 
there 50 years from now, like we are in South Korea, they have 
got no stomach for that, sir.
    Americans would like to have on their refrigerator a 
checklist that says how many of these forces we need and what 
laws need to be passed, and they want to check those off month 
by month so that they know when this thing will be over.
    I would hope that the administration would focus on 
developing those numbers so that our citizens can have that 
assurance that there will be an end to this.
    I would like to yield the remainder of my time to the 
ranking member. Thank you.
    Mr. Akin. Thank you.
    I would just maybe ``me too'' what Congressman Bartlett 
just said a little bit. My sense from a marketing point of view 
as just a plain old American--and, of course, I have had a 
chance to get over to Iraq a couple of times--but our sense is 
the media keeps saying, ``Well, somebody got killed, another 
couple of people got killed today.'' We hear that over and over 
again. And one of the things that we are not provided news-wise 
with is, ``These are the to-dos, and we are checking things off 
the to-do list.''
    When we go to Iraq, we have a sense that there is progress. 
It is slower than we would like it to be, but relatively 
speaking, considering the conditions in the country, it is 
pretty significant progress. But we don't really know what 
those items are and how to check them off, so just wanted to 
reiterate that.
    The second thought was, it has also been my sense that our 
difficulties over there have been less military than they were 
more in the nation-building kinds of things.
    Like, you have some police; you are trying to get them 
kicked into shape, but there are no courts, there are no jails. 
You have problems with you can't wire transfer money, which 
isn't really a military thing to build the wire transfer system 
in banking. You have to run oil pumping facilities and oil 
storage and transfer and all that. You have electric and sewer 
and all those things, which are really, in a way, nonmilitary.
    My sense has been that if there have been problems, it has 
been more in the nonmilitary sector almost than it was in the 
military. Would you want to respond to that?
    General Dempsey. I will ask Mr. Kimmitt to assist me on 
this.
    I will say, as it affects my job, though, I can say that 
one of the things we have been dealing with since we got there 
in April of 2003 is that the Iraqi people believed that, 
because we are who we are, that we would make their lives 
immediately better in those very sectors you are speaking: 
electricity and fuel and economic development.
    And certainly, I think we will have to reflect on the fact 
that, because those sectors have languished, it has affected 
the security sector. In other words, I think there are 
certainly some parts of the population that have lashed out 
because they haven't realized those dreams.
    You want to add anything?
    Mr. Kimmitt. Well, Congressman, I think your point is 
exactly right, that to the extent that the military is bearing 
a significance on the operations, it is oftentimes important to 
pull back and recognize that the solution and the long-term 
progress inside of Iraq is really going to be less about the 
military consequences and more about, ``Is this society 
prepared to move on?'' to dismiss not only the past of Saddam 
but any longstanding differences between the major constituent 
groups, the Shia, the Sunni, the Kurds.
    We are not pleased, at this point--and this is a subject 
that we will probably talk about later on, either in the closed 
session or later on in the 9010 discussions.
    We are certainly not pleased, at this point, that the space 
and time that the military has bought for the Iraqis themselves 
to take on the hard questions of reconciliation, that they 
haven't yet used this opportunity, and not recognizing that 
there is a difference, as General Petraeus has said many times, 
between the Baghdad clock and the Washington clock, the 
American clock.
    So we continue to work with not only the Iraqis, but also 
with our civilian counterparts, to try to accelerate the 
progress being made on the ground, not simply in terms of 
handing over provincial security control, but also in turning 
the society into one that is not constantly at each other's 
throats, and one that does not have a zero-sum mentality 
between the different sects.
    But in many ways, we are talking about changing attitudes. 
We are talking about changing suspicions that have been held 
for many, many years. And as we have seen in many 
counterinsurgencies, and as we have seen in many peacekeeping 
operations, those take time. Those take a significant amount of 
efforts, both on the parts of the outside forces that are there 
to help, whether they are civilian or military forces, but also 
internal to that nation, to be able to elicit that dialogue 
between the different constituent groups that can lead to the 
reconciliation that, at the end of the day, is going to spell 
success, not the military victories but the civilian victories.
    Mr. Meehan. Thank you.
    The gentleman from South Carolina, Mr. Spratt.
    Mr. Spratt. General Dempsey, I last saw you a week or 2 ago 
in Baghdad, and we welcome you back to the States. Not only 
that, we thank you for your dedicated service to our country.
    I observed, on one of the charts you showed us in Baghdad, 
that all of the timelines for the completion of objectives 
tended to end somewhere in 2008 if not sooner.
    You have 119 battalions up at some level of operational 
capability. Ninety-four are taking tactical leads in their 
areas of responsibility. As I understand it, all but four or 
five provinces are hopefully likely to be under local force 
control, indigenous force control, by the end of this calendar 
year.
    They are still short on logistics at the command level, 
particularly field-grade level. You simply can't grow overnight 
lieutenant colonels and majors, so that will have to be 
accomplished over time. Probably some additional embedded 
American troops would help their maturation, 
professionalization.
    But, as you look at those timelines, you have to ask, 
``Isn't it about time we talked about a transition?'' You used 
that word in your testimony. You used it in an interview with 
the National Journal, saying, ``To some extent, I am a fan of 
transition. After we move to protect the Iraqi people with this 
surge, at some point we will need to go back to transitional 
responsibilities.''
    You also make the observation in your testimony that, 
``This is a balancing act. There are several different values 
here. If you turn over responsibility too soon, you could 
falter and fail. But if you hold on too long and don't turn 
over responsibility, you will never know what the units can do 
and they will become over-defended.''
    I think that is what Abizaid and Casey and others have said 
about increasing our forces relative to theirs in the last year 
or so. They were concerned that the Iraqi troops would not be 
encouraged or challenged to rise to the task before them.
    Do you think it is time to have a transition plan, both for 
our purposes? We have 20 brigades on the ground, we have long-
term security issues to be concerned about.
    General Dempsey. Well, as I told you when you were in 
Baghdad, Congressman, I am the one in Iraq that had the T in 
his title, the T being transition. And so, everything that 
MNSTC-I has ever done is done with an eye on, ``How do we 
transition it over to Iraqi control?''
    I think I would respond to your question by saying I don't 
think it is an either/or proposition. There is ongoing 
transition even in the middle of this--not the middle, but even 
at the beginning of the surge, the institutional side of our 
enterprise is actively seeking to pass responsibility to Iraqi 
control.
    I think, tactically, the surge has conceded that the 
population has to be protected for a period of time to give 
some breathing space for political progress. But at the 
institutional side, I can tell you there has not been any 
slowing of our effort to transition responsibility.
    And, yes, we should constantly be looking to transition all 
sectors of this thing, tactical and institutional, to Iraqi 
control.
    Mr. Spratt. The president a couple of years ago, formulated 
in a very easy-to-understand way, he said, ``As soon as we 
stand up their forces, we will stand down our forces.''
    Would you agree we are approaching that point in time when 
it is ready to stand up their forces, give them operational 
responsibility for the security of their own country and then 
we begin a gradual withdrawal ourselves or pull back while we 
push them forward?
    General Dempsey. As you know, Congressman, my part of the 
equation is to get the Iraqi Security Forces to where we 
believe and I believe, and now Lieutenant General Jim Dubik 
believes, that they can accept that responsibility. There are 
parts of the country right now where that is possible. Not only 
that, there are parts of the country right now where it is 
occurring.
    I think the question will be best deferred to General 
Petraeus's assessment that he will make before this body in the 
late summer. Because the question becomes, has the surge been 
able to get at the belts and get at the parts of Iraq that, 
frankly, we haven't been able to address pre-surge? And as a 
result, can the security forces, given what I just mentioned 
about their challenges, can they take over responsibility?
    I think you will find that in parts of the country, the 
answer to that question will be yes. And I think you will find 
that in parts of the country, the answer will be no.
    Mr. Spratt. Just when I looked at your chart and everything 
sort of ended in 2008, it begged the question in my mind, what 
is next? And it suggested that a transition of some kind, a 
significant transition would be next.
    There was something in the paper this weekend, in The Post 
about the Pentagon at least making plans for three different 
strategies. One is to go long. The other is to go home. The 
other is to go small, which I guess means more embedding, more 
partnering.
    Would you discuss those options, to the extent you can?
    General Dempsey. Well, sir, we had a little conversation 
about metaphors earlier in the testimony. And so, since these 
appear to be football metaphors, I will now lateral that 
question to Mr. Kimmitt. [Laughter.]
    Mr. Kimmitt. Congressman, I think that the article you are 
referring to was one from some time ago. And I believe that 
that was from some comments that were coming out of Baghdad as 
they were conducting an assessment of some of the options that 
they were looking at.
    Earlier, the chair mentioned that General Petraeus was 
conducting a joint strategic review of the situation on the 
ground, along with Ambassador Crocker. It is working its way 
up. The secretary of defense has not yet been briefed on that, 
on that----
    Mr. Spratt. Is it originating in the Pentagon? Or does the 
Central Command have a central role to play in the formulation 
of this, given the fact that this is its command?
    Mr. Kimmitt. Well, it is certainly the case that the chain 
of command goes from Multi-National Forces-Iraq through Central 
Command to the Department of Defense and the joint staff.
    So certainly Admiral Fallon will be an integral part of 
this. It is my understanding that some discussion has already 
been held between Admiral Fallon and General Petraeus in terms 
of where the strategy is being viewed. And I think that, as any 
military officer would do, he would brief his boss before he 
briefed his boss's boss. And I think that is where we are at 
this point.
    Mr. Spratt. Thank you.
    Mr. Meehan. The gentleman from Georgia, Mr. Gingrey.
    Dr. Gingrey. Mr. Chairman, thank you.
    General Dempsey, I am going to address this question to 
you. Based on current reporting, it is difficult to obtain 
accurate figures for the actual number of the Iraqi soldiers 
that are present for duty.
    And the March 2007 Defense Department report advised that 
the actual number of present-for-duty soldiers is about one-
half to two-thirds of the 153,800 total. I guess that is due to 
scheduled leave. But some of it is absent without leave and 
downright attrition.
    This uncertainty, between 50 percent and 67 percent, is 
pretty wide, 17 percent spread, are over, if my math is 
correct, 20,000 soldiers in an ambiguous state. And, actually, 
it is tantamount to admitting that we don't have a confidence 
in our knowing where five brigades of the Iraqi army are at any 
one point in time, if you do the math, in the 20,000.
    So the question is, the wide variations in DOD reporting on 
the actual number of Iraqi soldiers present for duty, with 
estimates ranging from one-half to two-thirds, why this amount 
of uncertainty in the number that are actually missing?
    General Dempsey. It has to do, Congressman, with some of 
the things we have learned about their reluctance to report, 
literally. You know, the reporting process has been 
transitioned over to Iraqi control. So they report on their own 
strengths. They report on their payroll data.
    And what we have found is--I will just use two examples. 
When we receive a report that just doesn't seem to us to be 
reasonable, we will confront them. And oftentimes an Iraqi 
commander will either under-report because he knows if he 
reports what he has got he may not get any more; this is, after 
all, a nascent chain of command. Or he will over-report so that 
he gets a payroll share more than he deserves, and thereby 
pocket it.
    The instances of the latter are way down from 2006. In 
2007, we have actually been pretty pleased with the reporting 
process, and we think it is progressing.
    The other thing we have learned is, when we started to move 
units around the country, which is a very positive thing--I 
mean, when we told the Iraqi army that we needed an extra nine 
battalions, three brigades in Baghdad for Fardh Al-Qanoon, the 
first shot at that, as I told you, Congressman, was a real 
problem for us. They came down at less than 50 percent 
strength. And many of them, 20 percent, refused to come at all.
    We learned from that. Both we learned and our Iraqi 
counterparts learned, and have made adjustments to the point 
where now, when asked to move into places like Baghdad, with a 
system in place that trains them to do so; gives them a 
monetary stipend; issues an order that tells them how long they 
will be there; prepares the gating to welcome them and give 
them billeting and so forth--things that we take for granted in 
our Army--the last installment of that rotation was very 
positive.
    But they still leave behind approximately 25 percent of 
their strength to either guard their facilities, which is a 
natural instinct, or to make sure that they don't leave their 
local communities uncovered.
    This army, as a deployable army for the entire nation, is 
somewhat of a new concept for them. Even in the former regime, 
there were several units that were expected to deploy, the 
Republican Guard, but the rest of the army was largely 
territorial and fixed inside of certain regions.
    So we are learning. They are learning. The accountability 
is getting better. But they have tactical and they have 
strategic vulnerabilities. Reporting is a tactical 
vulnerability for the Iraqi army, no question.
    Dr. Gingrey. Well, General, what more can we do about that, 
though? This is a huge problem. And particularly, as you 
mentioned, some of it could be fraud on the part of the 
commander and over-reporting.
    What, specifically, can you tell the committee that we have 
put in place to try to get accurate numbers and get them to 
show up?
    General Dempsey. There are two things. One is rather 
obviously; the other is a technological application.
    The rather obvious one is, we have to get their leaders, 
their senior leaders, as interested in this problem as we are.
    The first couple of units that came to Baghdad at 50 
percent, we were very upset about that. At that time, it was 
General Chiarelli, General Casey and myself. But, frankly, the 
senior military leaders of the Iraqi government were kind of 
pleased that they had gotten 50 percent to come, because in 
their mind, this was such a change in culture that they were 
surprised they got what they got.
    So we have to get them as interested in this as we are, and 
we are.
    The technological issue is this system I described to you 
as the Human Resources Information Management System. It is a 
personnel database that right now goes to Iraqi division level. 
We are going to push it to Iraqi brigade level by the end of 
the year. And eventually, in early 2008, we will get it to 
battalion level.
    And once we have them accepting of an automated database--
there are some that are fighting against the automated database 
for obvious reasons. As soon as you automate it, it is subject 
to scrutiny, and they are not exactly sure they want that kind 
of scrutiny. But the more enlightened of them, and the ones we 
tend to try to empower, understand that it is going to be a 
powerful tool for them.
    Dr. Gingrey. Thank you.
    General Dempsey, in reviewing the May of 2007 unclassified 
Transition Readiness Assessments from the Ministry of the 
Interior transition team on its ministry, it evaluates the 
ministry at the highest tier, TRA-1, in command and control. 
This signifies that the ministry can provide effective command 
and control for police operations across Iraq.
    Given the limited transition team presence in the 
provinces, how much confidence do you have in this particular 
assessment?
    General Dempsey. Yes, I am actually quite confident, and 
here is why.
    Although we only get into about a third to a half of the 
police stations, we are embedded at the provincial level--that 
is to say, at the Provincial Joint Coordination Centers--with 
the provincial directors of police, all 18 of them, on a one-
for-one basis.
    And so we have PTTs, police transition teams, at the 
provincial level who, in turn, report to the National 
Coordination center, the NCC, who, in turn, reports to the 
National Operations Center, the NOC.
    And we are embedded in each of those nodes, and so we have 
actually seen them exercise command and control from center to 
province level on several occasions: problems in Diwaniya, 
problems in Amara, problems in Baqouba, problems in Samarra. 
And their reporting system and the command and control that 
they have exerted is actually quite efficient.
    Sometimes, they will intentionally bypass it. You know, the 
cell phone is both the boon and bane of my existence for 
command and control in Iraq, because they oftentimes will call 
directly down and lose visibility on the process.
    But quite confident based on what you just said.
    Dr. Gingrey. Given the accounts of endemic problems in the 
Iraqi police service, and even some of the members of our 
committee--I led a CODEL to Iraq. We had an opportunity to get 
over to Jordan at the JIPTC (Jordanian International Police 
Training Center) police training center.
    And as impressive as the facility was, what was stunning 
was the fact that the 50,000 or so Iraqi police service people 
who were trained, nobody knew how many of them were in Iraq, 
nobody knew whether they showed up for work, nobody really had 
an assessment or who we were training, frankly, because we 
didn't keep track of them.
    And it just seems, given what we were able to see relative 
to the police service and all of the endemic problems that we 
hear about on a continual basis, that struck me in the report 
as--it made me ask, ``How could it be accurate?''
    General Dempsey. Yes, as you know, JIPTC is a very fine 
institution with great entrance requirements and so forth. I am 
sure that the perspective of INL (Bureau for International 
Narcotics and Law Enforcement)--INL runs JIPTC for us, and has 
and continues to--their perspective was, we lost complete 
visibility when a policeman graduated. It is just not the case.
    I can tell you that we knew exactly what provinces--because 
they were recruited from provinces to go to JIPTC--we know what 
provinces they went back to. We know where the provincial 
director of police assigned them.
    But I will concede, as I have earlier with other parts of 
this, that once they get to a local police station, that we are 
subject to the whims of the local police chief's reporting and 
payroll manipulations and so on and so forth.
    And there is no database yet to in an automated way look 
down inside police stations. That is in train as well. There is 
a database for the MOI that is being put in place.
    That also makes them uncomfortable, by the way. But----
    Dr. Gingrey. But you would agree, General, given the 
hundreds of millions of dollars invested in that training 
operation, one would think that we would have a better idea, or 
at least they would have a better idea whether or not the 
police servicemembers that they trained showed up for work, 
whether they moved up, you would think there would be an 
assessment about whether the training put them in a better 
position to move up in rank.
    General Dempsey. Sure.
    Dr. Gingrey. It was stunning to all of us that there was no 
real assessment of where these police service personnel ended 
up and how they were doing.
    General Dempsey. Yes, I do agree that we should and can 
continue to help them become better at those kind of tracking.
    I would say, though, that our ability to provide trained 
police with the kind of skills--human rights, rule of law--to 
the provinces is certainly nothing to be underestimated. Again, 
the Iraqi police is something they have never been before, and 
that probably doesn't exist any place else in the region. That 
is why the police side of this is so extraordinarily difficult.
    Mr. Meehan. Mr. Akin.
    Mr. Akin. I have no further questions.
    Mr. Meehan. Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    General Dempsey, I am going to take advantage of you being 
here and ask you somewhat broader questions. But they relate to 
what we have been talking about.
    The first one, I wanted to hear your thoughts on one of the 
concluding comments you made. And, reading again from your 
opening statement that you delivered earlier, ``The leaders and 
people of Iraq have not given up on themselves. We should not 
give up on them.''
    One of the issues that we have, I think that the American 
people have, the questions that are being asked is, ``Well, 
what is the attitude of the Iraqi people toward America and our 
American troops and all our American civilians that are working 
there?''
    There have been, what, I guess the number is approximately, 
a rough estimate, about 2 million Iraqis that have made a 
decision to have left Iraq and have gone to neighboring 
countries, discouraged with their potential future.
    We certainly have seen in your time there, since you were 
first there, dramatic changes in some neighborhoods, as there 
has sectarian violence that have driven Shias out of mixed 
neighborhoods and Sunnis out of mixed neighborhoods. And I 
think General Petraeus has made public comments about some of 
the dramatic changes he has seen in neighborhoods since he has 
been there.
    There certainly have been an abundance of polling data and 
discussions about what have been attitudes of a certain 
percentage of Iraqis toward American troops. And there has been 
an unfortunate willingness on the part of a significant 
percentage of Iraqis to say that it is okay to attack American 
troops.
    So when I hear your statement that ``leaders and people of 
Iraq have not given up on themselves, we should not give up on 
them.'' But it is certainly not a rosy scenario of everyone 
pulling in harness.
    Would you amplify on the negative side of this and how the 
American people should see this over the long haul?
    General Dempsey. I would say that my comment is more based 
on my personal perspective on what would be the indicators that 
Iraq had descended into something that was irretrievable as a 
national entity; for example, if the Council of Representatives 
stopped sitting. I mean, it may not be functioning very well, 
but it continues to meet.
    The army sees itself as an institution of national unity, 
and the leaders of Iraq see the army as an institution of 
national unity and are not inclined to use it for sectarian 
purposes.
    It is those kind of things where it seems to me the country 
still believes that it will be an integral whole and not 
fragmented into thirds or something less than thirds in the 
future. And that is really the point I wanted to make in that 
phrase.
    There is no question, though, that--I heard General Abizaid 
say 3 years ago that there would undoubtedly, at some point in 
this mission, be a point of descending consent, where the 
population would either want to be completely in control of 
their own destinies or begin to blame us for the failures of 
their government.
    And I think we have to be alert for that point. I don't 
think we are there yet. But we certainly need to keep our eye 
on that.
    Dr. Snyder. As all Americans listen to their daily news, if 
there has been a dramatic bombing, IED, suicide explosion 
somewhere in Iraq, that often will be in the top one or two or 
three stories: 30 killed with this bomb, 25 killed in this 
bomb.
    I know that that is one of the metrics that you all follow. 
And I am not sure how to put that in perspective. I think there 
is one perspective amongst the American people that when we 
hear those kinds of numbers--another suicide bomb went off, 
killing 25 or 30 people, and that we know the ramifications 
that that has to those families and the resentments and tragedy 
that it brings, the tendency would be to say, ``That is one 
more indication that it is not going well.''
    The other side of that--and as one who did not vote for the 
war resolution originally in October of 2002, I am looking at 
it, I think, the other way, which is, as I see these horrendous 
bombings going off in marketplaces, killing just 
indiscriminately women and children, and it seems like for 
those who have the perspective that there should be an 
immediate--you know, ``Go home as quickly as possible,'' there 
really are some horrendous people doing horrendous damage to 
innocent people.
    How do you see where these dramatic bombings fit into how 
we should view what is happening in Iraq and your view? As you 
began your statement earlier, you are cautiously optimistic.
    General Dempsey. You know, as we try to determine who are 
our enemies and the enemies of the Iraqi government, we tend to 
see the high-profile mass-casualty suicide bombings as a tactic 
of the Sunni extremist. And I think that for a period of time, 
we maybe were more alone than in accord with the Iraqi 
government on, you know, what to do about that.
    I would suggest that, as you see what is happening in Al 
Anbar province, it does seem that it has finally become 
apparent even to the Sunni population that those kind of 
attacks, which kill indiscriminately and kill not only Sunni 
but Shia and Kurd, and Christians for that matter as well, I 
think you are seeing them begin to come to the conclusion 
finally that their future should not be tied to the Sunni 
extremist element, and in particular al Qaeda in Iraq. I think 
that is a positive thing.
    The tactic of the Shia extremist--and make no mistake about 
it, there is an extremist element of the Shia population as 
well. And their tactic seems to be the, as we describe it, 
extrajudicial killing or murders, where they will kidnap or 
move into a neighborhood and kill dozens on occasion.
    And so as we have tried to describe it to the Iraqi 
government, it is absolutely necessary to address both sides of 
this spectrum of violence. Because if you address just one or 
the other, you tend to empower that other element.
    And so I do think that the Iraqi government, Prime Minister 
Maliki in particular, understands that either extreme will not 
only undermine his government but eventually could potentially 
lead to the failure of Iraq.
    Dr. Snyder. Thank you. My time is up.
    Mr. Meehan. Mrs. Davis, did you have a----
    Ms. Davis of California. Thank you, Mr. Chairman.
    I wonder if I could just go back for a second, because I 
understand that you wanted to speak about the challenges of 
working with the Sunni tribesmen separately and in closed 
session, but those reports have been in the media. And I wonder 
what you could tell us that would help us to understand, help 
the public to understand better what exactly is happening and 
what we are learning from that process.
    General Dempsey. I can in general terms, Congresswoman. And 
I would be happy to do that.
    First of all, I think that local initiatives in general--
this particular one in Al Anbar province is certainly the high 
water mark for local initiatives--but local initiatives where 
the local populace decides to cast off this extremist element 
in their midst could be profoundly important.
    But I say ``could be profoundly important'' because at some 
point for the government of Iraq to remain the central 
authority and to have the sole proponency on the use of force, 
which is what a civil society must have, the central government 
must be the sole proprietor of the use of force.
    So what we have to do, quite simply, is we have to find a 
way to harness the power of these local initiatives but tie it 
back to the center. And that is what I will talk to you about 
in closed session. That absolutely has to happen.
    But it could very well be, maybe already is, that this 
local recognition that the extremist elements on both sides 
have to be stopped that could be the most profound moment in 
this entire mission--could be.
    Ms. Davis of California. Okay. I will leave it at that.
    I think part of the confusion that people might have is 
that if they are able to be co-opted in working with the local 
tribes, what is the difficulty in trying to make that 
transition?
    General Dempsey. Well, I think the difficulty, simply and 
in an unclassified way stated, is we have to make sure we know 
their motivations.
    Ms. Davis of California. Okay. Thank you.
    I think we have all tried to step back a little bit and 
look at the overall scene that is happening. And I see the 
parallel moves of training the Iraqi Security Forces alongside 
hopes for political reconciliation.
    But I am wondering to what extent that hampers or has 
really stalled, in some cases, the opportunity to move as 
quickly as possible toward a transition.
    How are even the Iraqi generals or the leadership that you 
are working with, how frustrating to them is the lack of 
movement for political reconciliation?
    And in fact, I mean, we could be doing an exceptional job 
on one end but not working on the other. And to what extent 
does that affect their work?
    General Dempsey. Well, I think I would say that they are 
acutely aware of our frustration at the pace of movement toward 
reconciliation. But that could be because I am not sure they 
see themselves capable of reconciliation in the near term. I 
think they may see themselves capable of accommodation in the 
near term.
    And in my discussions with them, particularly those that 
take a very broad national and even, in some cases, regional 
view--men like Barham Saleh, for example, the minister for 
economics--I think they are looking for ways to make themselves 
more interdependent on each other as a first step, as a step 
toward accommodation, thereby setting the conditions eventually 
for reconciliation.
    I mean, that is why this hydrocarbon law is so important. 
It makes the regions and the peoples of Iraq interdependent. 
And until they find some reason to be dependent on each other, 
it is going to be probably impossible to reconcile. It may not 
be impossible to accommodate, though.
    Ms. Davis of California. Thank you, Mr. Chairman. My time 
is up.
    If we are going to go into closed session, I would 
appreciate that. Thank you.
    Mr. Meehan. Mr. Spratt.
    Mr. Spratt. General Dempsey, it is my understanding that 
the Iraqi units that have shown up for duty in the surge 
initiative have typically shown up a battalion or two short 
than an ordinary brigade.
    You said for justifiable reasons they felt it necessary to 
leave behind a battalion to defend the homefront. But in 
addition to that, it is my understanding they have been serving 
short tours like 90 days, a fairly short period of time before 
they rotate out.
    Have these factors hampered the success of the surge 
initiative thus far?
    General Dempsey. Not thus far, sir.
    But General Odierno and I, who meet on a regular basis--he 
has expressed his concerns that the turbulence created by short 
deployment cycles for Iraqi units could begin to impact on his 
ability to accomplish what he needs to on the surge.
    It is one of those cases--there are cases in this mission 
where the tactical necessity rubs uncomfortably against what to 
me is the strategic desire to, in this case, have deployability 
be a core competency of the Iraqi army.
    In other words, for me as the transition commander, I like 
to think that this Iraqi army will see itself as a national 
entity and therefore be willing to move where it is needed, not 
just stay in one place.
    And I also think we learn an enormous number of lessons 
when you move units around. You actually get a look at their 
strength, you get a look at their equipment, you get a look at 
their ability to lead as you move them around.
    So there is a strategic transition objective in making 
deployability a core competency of this army that is rubbing 
uncomfortably against a tactical desire to keep them in place 
for stability. We are going to work that out, and he and I 
now--Lieutenant General Jim Dubik.
    And it may be extending the period for some length or time, 
or it may eventually mean that we will build additional forces 
to remain in Baghdad permanently, but not lose the 
deployability piece. We can pull them out of the fight and send 
them to training in Basmaya Range, which is a very state-of-
the-art training center we have built for them.
    We have to make sure we keep them thinking about 
deployability, but we may be able to do so in a way that 
doesn't impact the surge. We are aware of that.
    Mr. Spratt. General Petraeus told us up in Mosul several 
years ago that one of the frustrations or dilemmas he 
confronted was for every bad guy or troublemaker he took off 
the streets, he risked antagonizing three or four, five others.
    Wouldn't it be better to have an Iraqi face on the surge? 
And I take it that was part of the architecture of it, with one 
brigade matched by one partnered battalion of ours. And can you 
achieve this affect if you have the Iraqi troops rotating in 
and out on a fairly short-term basis?
    General Dempsey. I don't know that I have heard that 
proposal, Congressman.
    But, again, as long as the two of us accept that we have to 
make sure we have both things--the surge has to work, but we 
have to keep developing this army as a long-term institution--
then I think we will be able to figure it out, or General Dubik 
and General Odierno and General Petraeus will.
    Mr. Spratt. Well, assuming we do achieve some success in 
Baghdad with this surge initiative, I would assume that some 
troops will have to stay behind for some time to come in order 
to stabilize that success and keep it riveted in place. And I 
would assume that we would prefer to have Iraqi troops do that 
as opposed to our occupation troops.
    How do we achieve that? Are there sufficient Iraqi forces 
to come and take on this longer-term duty?
    General Dempsey. As I have mentioned--I think I even 
mentioned it when you were with me in Baghdad--we have done an 
assessment and come to the conclusion that they do lack depth.
    And I will define depth as the ability to maintain control 
of their battlespace in one part of Iraq, and move sufficient 
forces elsewhere to what we would describe as weight domain 
effort.
    Baghdad is clearly the main effort right now. And we are 
trying to get Iraqi units to move to it, but they lack the 
depth to be able to keep hold of what they had and move.
    And so that is why I have said that I think they will need 
to grow a few more forces--and I am not prepared to put a 
number on it yet--so that they can do that, exactly what you 
say.
    In other words, everyone understands there will be a 
decline in U.S. presence at some point; and to include the 
Iraqis understand that. And they are beginning to ask me how 
much bigger should they grow in order to offset the declining 
U.S. presence. And the answer to that question is the pace at 
which we eventually decline.
    And that part of what, I think, Admiral Fallon, General 
Petraeus, and our Iraqi counterparts have to sort through.
    Mr. Spratt. Thank you again, sir.
    Mr. Meehan. Dr. Snyder.
    Dr. Snyder. General Dempsey, following up on what Mr. 
Spratt was talking about, as you look ahead to the future, and 
at a point when there will be changes in the role of U.S. 
troops, what is the number--I am trying to arrive at some kind 
of a number of U.S. troops that would need to be available to 
protect U.S. trainers.
    Would we not foresee that, even 1 or 2 or 3 years down the 
line, that we will have U.S. trainers, still, perhaps, in an 
embedded role or a partnered role with Iraqi units, but would 
have to have U.S. troops in fairly substantial numbers, would 
they not, to be prepared to bail out those troops or support 
those troops and provide close air support?
    I mean, it would have to be a significant number of U.S. 
troops, would it not?
    General Dempsey. Well, I have not been involved in any--
intuitively, what you just said----
    Dr. Snyder. But you are aware of how many Iraqi units you 
currently have----
    General Dempsey. I am.
    Dr. Snyder [continuing]. In which U.S. troops are currently 
embedded.
    General Dempsey. Correct.
    Dr. Snyder. I assume you are still trying to get the 
trajectory up, in terms of number of U.S. trainers. And if we 
have trainers, I assume, sprinkled all over the country, 
providing this role everywhere, you couldn't just have some 
kind of rapid reaction force sitting outside of Baghdad. We 
would have to have substantial numbers of U.S. forces available 
at multiple places throughout the country, would we not?
    General Dempsey. I think the answer to that question will 
be determined once we decide whether the current transition 
team concept will be the one that prevails, or if it adapts.
    I mean, for example, when a unit reaches what you have seen 
described as level one, the question will be, does it still 
need a transition team? If the answer to that question is yes, 
then the commander on the ground will make that decision. Well, 
then you will have transition teams spread all over the 
country.
    If, on the other hand, as they reach level one, those 
transition teams move to the next higher level--in other words, 
it, sort of, uncoils from bottom up, and that the transition 
team concept is more like a circuit rider program where a 
transition team rolls in and rolls out as necessary--then I 
think it changes the dynamic and it helps the commander answer 
that very concern.
    Your point about sovereign airspace is a very good one, 
though. I mean, Iraq's air force will not be capable of 
protecting their sovereign airspace for probably the next 5 
years. So the question that will be negotiated with the Iraqi 
government--and, again, I would ask if Mr. Kimmitt wants to 
comment--but that is all part of determining what is this long-
term security relationship.
    Dr. Snyder. I am running out of time. I think the chairman 
has been very patient here.
    Two final questions. The first one, if you could just 
comment real briefly: From the time you entered the Army and we 
were in the midst of a cold war, all your training was toward, 
how do you have massive ground forces and nuclear forces and 
all that kind of thing? We are in a different concept of what 
we think war is going to look like in the future.
    And I continue to be concerned that those of us who are 
supportive of the military in this role and the military that 
we are not appreciating--that we really need to dramatically 
change the role of foreign language training in our military 
forces, that the business of sending a trainer over there with 
1 month of somehow some part-time language training and some 
cultural sensitivity makes up for the fact that we really need 
to be people sending over there that, as part of their career, 
they had had several years of Arabic or several years of Farsi 
or several years of whatever the languages are, and that we are 
not working that at all into our training the way we ought to, 
in our promotion and--what are your thoughts about that, as 
somebody who looks ahead at the----
    General Dempsey. Well, I think your point is correct.
    I have been out of the country so long, I can't speak 
definitively for this, but I do believe that even when General 
Petraeus was at Fort Leavenworth and in conversations with the 
superintendent of our military academy on the Army side, there 
is in fact some emerging changes to our professional 
development model that would in fact require an officer from 
the time he was commissioned to begin that course of study into 
cultures, into languages and actually make them eventually 
gates that have to be navigated to be promoted.
    I think you will see that, sir.
    Dr. Snyder. I am not so sure that it shouldn't be beginning 
in boot camp with our basic enlisted folks, that this is just 
going to be part of your life as a military soldier.
    May I ask one final question, Mr. Chairman?
    Would you respond to the soundbite that we hear again in 
the great American debate going on about America's role in the 
war in Iraq? When you hear the phrase, ``America should not be 
refereeing a civil war,'' how do you respond to that? And how 
do you see the role with regard to the sectarian violence----
    General Dempsey. You know, without getting into the 
semantics of whether it is or is not, the way I would respond 
is, I think we do what we have to do in parts of the world that 
are important to us.
    And I hearken back, Congressman, to the fact that, at least 
from my personal perspective, Iraq is very important. A stable 
Iraq as a strategic partner in that part of the world, which is 
undoubtedly the most dangerous part of the world for our nation 
for at least the next 25 years--again, in my personal opinion--
whatever is there, I think we deal with it, because the Nation 
is important to us.
    Dr. Snyder. Thank you for your time today and your 
testimony and your service and the service of Mrs. Dempsey.
    Secretary Kimmitt, thank you.
    Mr. Meehan. Thank you, Dr. Snyder.
    I would like to continue our practice of allowing our 
subcommittee staff members here an opportunity to ask 
questions. So I would first like to turn to Mr. John Kruse of 
our subcommittee staff.
    Mr. Kruse. Thank you, sir.
    General, my question is concerning the 2006 Joint Campaign 
Plan and the April Assigned Campaign Plan by Ambassador Crocker 
and General Petraeus. Which one were you operating under when 
you left? And at the unclassified level, can you tell us any 
significant differences between the two?
    General Dempsey. I can, sir.
    And we were operating under the interim, let's describe it, 
campaign plan signed by Ambassador Crocker and General 
Petraeus.
    And I would not say it is a sea change or a significant 
change in strategy. I think you know that General Petraeus's 
assessment correctly was that there was a period of time here 
where we had to protect the population. I think in his view, 
the effort to transition had probably put the population at 
risk that was unacceptable risk.
    And so, there is always a balance between transition and 
security. And in his view, the balance had tipped a bit too 
precipitously to transition and that it didn't have to be 
either/or, but certainly that in the near term, this period 
that he describes as the surge, we had to ensure that the 
population was secured.
    As he has described it to me, if it comes to a jump ball 
between transition and security, security must prevail in the 
near term here to give the Iraqi government time to move ahead.
    So that is the way I would describe that change.
    Mr. Kruse. General, will your successor have to revise the 
MNSTC-I 2007 Campaign Action Plan to reflect the new Crocker-
Petraeus joint campaign plan?
    General Dempsey. Almost surely. I mean, it is a tenet of 
our profession that as the senior commander adapts his campaign 
plan, we have to adapt ours to nest in it.
    Mr. Kruse. General, if I can just focus for a moment on the 
IPS (Iraqi Police Service), our investigation has demonstrated 
that the development of the IPS lags behind the national police 
and certainly Iraq armed forces. After speaking to a number of 
transition teams, our police transition teams' constant theme 
is, ``It is a good day if Iraqi police are able to go out and 
patrol.'' That seems to be the measure of success.
    Could you comment on MNSTC-I or MNF-I, what their goal is 
for the development of the IPS? Where do we want to take them 
to? And if you can comment on how the transition teams, the 
advisory mission, will leverage that goal.
    General Dempsey. Okay. I go back to what I mentioned a bit 
earlier: that we are actually trying to build a police force to 
do something that it has never done before in that part of the 
world.
    And so, as you know--and I am sure as you know--that in the 
past, police forces typically, if they were traffic police, 
they stood in the traffic circle, but if they were patrol or 
station police, they pretty much stayed in the station. And 
then as someone wandered in with a problem, they would either 
choose to deal with it or not, and sometimes they chose to deal 
with it if the price was right. I mean, that is just what we 
encounter.
    One of the things that the Baghdad Security Plan, Fardh Al-
Qanoon, has done is established these joint security stations. 
And a big part of the motivation for that was to get the police 
to feel confident that they could leave the station and go out 
on patrol and survive the experience.
    Now, recall that policeman in Iraq are armed with 
individual protection but they don't have armored vehicles. 
They have some crew-served weapons to protect police stations, 
but patrolling in the back of a Suburban or in the back of a 
pickup truck in that environment is a very dangerous 
experience.
    So the joint security stations were conceived and are 
operating so that you have all four components working 
together: local police, national police, Iraqi army and 
coalition. And part of the motivation, as I mentioned, was to 
get the local police out of the stations.
    It is working in some places, and in some places it is not 
working.
    Mr. Meehan. Thank you very much.
    Mr. Jones just arrived.
    And thought you might want to take this opportunity to ask 
a question, if you would like.
    Mr. Jones. Yes, Mr. Chairman, I apologize for not being 
here most of this session.
    And, General, I want to thank you for your service. I have 
heard so many good things about you.
    And, again, I apologize for--I actually don't mind telling 
you, I was on T.V. today about the Duke lacrosse players down 
in North Carolina, which has been a huge issue, as you well 
know, and that was the main reason I wasn't here on time, Mr. 
Chairman.
    And, General, I am going to go a little bit off, but 
because you are such an expert, the reason that--I was at a 
subcommittee hearing a couple of weeks ago, and we had Air 
Force, Marines, Army to testify--most of them were colonels, I 
think, and one lieutenant--about the training of the police in 
Iraq.
    And I have heard you today--a couple questions, in brief, 
Mr. Chairman.
    I took from their testimony--and I did not hear yours, but 
I heard parts of your answers to some of my colleagues--it 
seems like the best anybody can tell me, that it is slow and it 
is probably moving forward instead of backward.
    But you can't, and they couldn't, tell me that in two years 
or three years the police force will be at a position where 
they can pretty much do the police work themselves. And I am 
not talking about investigative work. I am just talking about 
taking care of a block, a neighborhood.
    What would you say to a Member of Congress if the same 
report that those colonels gave--and they were still giving 
that same report three years from now?
    You know, I learned yesterday that we are now going to arm 
the Sunnis. I know that has nothing to do with the police work, 
I would assume. The American people are just terribly 
frustrated with what seems to be an impossible situation that 
you and others have been put into.
    Now I will go back to what--I am rambling, but I will go 
back to what I am trying to say. You cannot, in your position--
I guess you have been very honest and up-front. You always 
have. That is your reputation. And God bless you for being that 
type of person.
    But we are grappling with a nation that the budget is about 
to explode from overspending. The figure in Iraq now is $9.2 
billion a month. We are careful about assigning weapons to many 
of these Iraqis in the police force because we don't know if 
they are on our side or not.
    How do you say to the American people that it is going--how 
would you, if you were in my position, how would you answer the 
people back home that are saying, ``Are we in a black hole?''
    General Dempsey. Actually, Congressman, thanks for the 
opportunity to answer that question, because not only does Mrs. 
Dempsey ask me that question on occasion, but, as some of you 
know, I have had two children serve with me in Iraq as well. 
One is a captain, and one is a--my daughter is a second 
lieutenant.
    And they are asking the question, and they are also asking, 
how many times do we have to go back? And those are questions 
that are fair questions. And so here is what I would say, 
though, in answer to them or in answer to you.
    First of all, please don't forget that Iraq is an important 
part of our future, and that it may be that we have to continue 
to sacrifice there for some time in order to achieve our 
objectives, unless the objectives change. And that is not a 
military decision; that is a political decision. But while the 
objectives remain what they are, we need to stay committed to 
it.
    Second, the Iraqi people are very eager to take over 
responsibility for their own security. We would be in far worse 
shape if they didn't express that eagerness. And so that is a 
positive thing, in my view.
    And they have started to demonstrate their willingness to 
do it, at least financially, as I mentioned in my opening 
statement. There is every reason to believe that, this year, 
they will outspend us two to one, and next year it should be 
three to one, in my view, if the budget process goes as I 
anticipate it may.
    And in terms of local police in particular, I don't think 
local police will reach a level that you and I would recognize 
as local police until political progress is achieved.
    In other words, I think we can and will make their army and 
their national police forces capable of taking over security in 
Iraq soon. I won't put a date on it, because I am not there 
anymore, and that really is the responsibility of those there 
to make that decision.
    And that the national forces, once they are able to take 
over the security portfolio, the local police will only become 
effective once the security situation stabilizes and political 
process is realized.
    Stated another way, local police are tied to political 
process in a way that isn't true for national forces, so we are 
very focused in the national forces and getting them in a 
position to take control. We are working with the local police, 
because, at some point, they are going to need them. But they 
are not going to be able to step up while the situation is as 
elevated as it is.
    In seven of the provinces, however, today, local police 
are, in fact, in the lead in security. But those are the parts 
of Iraq where political process has moved sufficiently forward 
and tend to be in those parts of Iraq that are homogeneous.
    So the Kurdish region is stable, the deep Shia south is 
stable. Al Anbar is looking promising, but Baghdad, Diyala, 
Salahuddin and At-Ta amim, which is the faultline, they are not 
stable and the local police are not effective there.
    Mr. Jones. Mr. Chairman, thank you very much.
    Mr. Meehan. Thank you.
    Mrs. Davis.
    Ms. Davis of California. Thank you, Mr. Chairman.
    We are looking at numbers, I believe, of increasing the 
Iraqi army to about 50,000 additional soldiers. I think you 
mentioned that by the end of the year that was the hope----
    General Dempsey. It is about 45,000--well, it is not just 
the army. It is military forces, because the air force and navy 
are coming along.
    Ms. Davis of California. Could you speak then to the 
capacity to do that? I mean, we have talked about the immature 
logistics system and any other areas of government. How do you 
anticipate that that capacity is going to be there?
    And then, just to follow up very quickly, General--we 
really appreciate your hanging in for the length of this 
hearing--if you could comment on the Iraqi navy. And are we 
developing the Iraqi navy with the ability to actually protect 
their interests in the Gulf as well as the U.S. interests too?
    General Dempsey. Yes, ma'am. Thanks. And by the way, I see 
this more as an opportunity than a liability for me, because I 
have invested 3 years of my personal life into this, and has my 
family, and this is a chance for me to help you understand what 
I think exists and, just as important, what doesn't exist in 
Iraq. So I don't mind a bit, to tell you the truth.
    Capacity is there, or going to be there. You are really 
interested though, ma'am, in capability.
    There is an Iraqi logistics architecture. They helped 
design it. They are helping fund it, but it is not 
demonstrating its full capability for probably a number of 
reasons.
    One is unfamiliarity for a few reasons. The second one is 
that they are in a very tough fight, and developing the 
capability to do things other than survive in the middle of a 
fight is pretty challenging.
    And the third thing gets at the issue of leadership that I 
mentioned before. I mean, I hope I leave you with the 
understanding that the scarcest resources we have is not time, 
it is not money; it is leaders in Iraq.
    As you know, the Baath Party consciously culled out for 40 
years the kind of leaders we are looking for. They culled them 
out. Innovation, creativity and accepting responsibility were 
the three things that could get you killed during the Saddam 
regime.
    Then they went to war with Iran for several years, and most 
of their bravest soldiers, not surprisingly, and their bravest 
leaders were killed.
    And then they fought two wars against us, and now they are 
fighting a war against al Qaeda and others.
    And so we are running into a challenge of getting leaders 
in place that can turn the capacity we have provided into a 
capability. That is really the challenge.
    Ms. Davis of California. And absent their doing that, I 
guess, does that training fall on the U.S. then, if, in fact, 
those leaders are not there?
    General Dempsey. Well, in some things I think the answer 
will be yes, but we have found ways to help them. I mean, the 
foreign military sales program was a huge moment for us when we 
were able to convince them that they can't enter into 
reasonable, honest and productive contracts where they were 
right now in their development. They are incapable of it. And 
so we convinced them that we can help with that, if they just 
allow us to do so. And they are beginning to do that.
    I wish they had the same capability to do that for the 
other--there are 27 ministries, 12 key ministries. And we 
overwatch two. And two of them are enrolled in foreign military 
sales and are beginning to produce things for them, equipment 
and goods and services.
    To your other point about the navy, ma'am, the Iraqi navy 
is actually progressing. It is rather small. But it doesn't 
need to be big. It has 36 miles of coast. They have two 
offshore oil platforms. Of course, one of those oil platforms, 
ABOT, is responsible for transiting 83 percent of their 
economy, one oil platform. And the other one pulls in about 4 
or 5 percent. So almost 90 percent of their economy runs 
through their offshore oil platforms in the south.
    They are closely partnered with CTF 158, which is the 
coalition navy and NAVCENT in the Gulf, who provide them not 
only the transition teams and the trainers, but also provides 
them additional combat power that they can call upon when it 
exceeds their capability.
    For example, they don't have yet an offshore support 
vessel. And so the small Iraqi patrol boats have to go back and 
forth in and out of the port of Umm Qasr to be refueled and 
rearmed and refit. The CTF 158 recently put the HMS Belvedere 
there, which is a British offshore support vessel. And they 
intend to leave it there for a couple years, which now allows 
this little nascent navy to stay at sea.
    They also have two squadrons of marines that have been 
trained to take responsibility for point defense of the 
offshore oil platforms. The smaller platform, the 
northernmost--ABOT, the one that is very close to the Iranian 
line--they will actually take responsibility for securing it 
this year, probably in the fall. And then we anticipate maybe a 
year later they will be responsible for the KAOT, which is the 
bigger one.
    But we will see how they do with ABOT before we decide 
whether to hand over KAOT to them.
    Ms. Davis of California. Okay. Thank you very much.
    Mr. Meehan. General, thank you very much for your 
testimony.
    There was one question that I think Mrs. Davis had that 
either we could go to a secure room or maybe we could go in the 
back room and you could whisper to her. It is up to you.
    But I want to thank you for your appearance. You have 
always been accessible to Members of Congress, both here in 
Washington but also in various trips to Iraq that members have 
taken.
    We have on this subcommittee, as the chairman and I 
indicated, had some disagreements or have had some 
disagreements with the DOD relative to witnesses and relative 
to materials being available to the committee. But we 
appreciate your accessibility.
    We appreciate even more your service to this country. And 
we hope we have you out of here in time to take Mrs. Dempsey to 
lunch.
    Thank you.
    General Dempsey. Thank you very much.
    [Whereupon, at 11:28 a.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             June 12, 2007

=======================================================================




=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 12, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8265.017
    
    [GRAPHIC] [TIFF OMITTED] T8265.018
    
    [GRAPHIC] [TIFF OMITTED] T8265.019
    
    [GRAPHIC] [TIFF OMITTED] T8265.004
    
    [GRAPHIC] [TIFF OMITTED] T8265.005
    
    [GRAPHIC] [TIFF OMITTED] T8265.006
    
    [GRAPHIC] [TIFF OMITTED] T8265.007
    
    [GRAPHIC] [TIFF OMITTED] T8265.008
    
    [GRAPHIC] [TIFF OMITTED] T8265.009
    
    [GRAPHIC] [TIFF OMITTED] T8265.010
    
    [GRAPHIC] [TIFF OMITTED] T8265.011
    
    [GRAPHIC] [TIFF OMITTED] T8265.012
    
    [GRAPHIC] [TIFF OMITTED] T8265.013
    
    [GRAPHIC] [TIFF OMITTED] T8265.014
    
    [GRAPHIC] [TIFF OMITTED] T8265.015
    
    [GRAPHIC] [TIFF OMITTED] T8265.016
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             June 12, 2007

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. ANDREWS

    Mr. Andrews. Account (by category) for the 188,300 MOI Civil 
Security ISF that have been trained and equipped. Account for them by 
category (KIA, deserted, wounded and on payroll, active service, 
unaccounted for, etc.) to supplement the record. (CM Andrews HASC O&I 
Hearing)
    General Dempsey. (U) The specific information requested is not 
accessible given the way the Ministry of Interior tracks personnel 
accountability. Simply put, when policemen are KIA, wounded, 
unaccounted for, deserted, etc. there is no distinction made as to 
whether they are trained or untrained.
    (U) There is currently no reliable data on how many of the trained 
and equipped police from the Objective COIN Security Force are still 
serving with the Mol due to a number of factors. The estimates of this 
number range from 40% to 70% of the total trained by coalition.
    (U) The MOI has hired a significant number of police beyond those 
trained by MNSTC-I.
    (U) To cross-match WIA and KIA against the list of policemen who 
have or have not received training is problematic for the Ministry of 
Interior's current human resource management system since it is a 
manual paper system for personnel accounting. To gather the requested 
information would require a manual review of each individual personnel 
file assuming the correct information is annotated in every file.
    (U) There are two database systems currently in development to 
automate human resource management for the Mol. First, E-Ministry is 
designed to be the Mol's centralized database for the approximately 
24,000 employees in the Ministry of Interior headquarters. E-Ministry 
is currently in Phase I, testing and evaluation. Phase-II data entry is 
anticipated to begin in December 2007, and be fully populated by 
December 2008 (conservative estimate). If the project is embraced by 
key personnel in the MOI, the data entry phase could be complete as 
early as mid 2008.
    (U) To automate the management of Iraqi police in the provinces, an 
additional personnel system is being developed. The Iraq Police Data 
Management System (IPDMS) is a US Department of State-sponsored 
initiative currently in the development stage. IPDMS is scheduled for 
test deployment in August 2007, pending the formation of an MOI 
committee. It is not possible at this state to estimate when IPDMS will 
be fully operational. This committee, which has been approved by the 
Minister, will provide direction, deployment plans, standard operating 
procedures, and training candidates that will allow IPDMS to be 
implemented. IPDMS is designed to link with e-Ministry.

                                  <all>

</pre></body></html>
